<html>
<title> - HEARING TO REVIEW THE FEDERAL COORDINATION AND RESPONSE REGARDING POLLINATOR HEALTH</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                     HEARING TO REVIEW THE FEDERAL
                  COORDINATION AND RESPONSE REGARDING
                           POLLINATOR HEALTH

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2015

                               __________

                           Serial No. 114-14

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                                     ________
                                     
                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-750 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
TOM EMMER, Minnesota
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

                    RODNEY DAVIS, Illinois, Chairman

GLENN THOMPSON, Pennsylvania         SUZAN K. DelBENE, Washington, 
AUSTIN SCOTT, Georgia                Ranking Minority Member
CHRISTOPHER P. GIBSON, New York      MARCIA L. FUDGE, Ohio
JEFF DENHAM, California              JAMES P. McGOVERN, Massachusetts
TED S. YOHO, Florida                 ANN M. KUSTER, New Hampshire
JOHN R. MOOLENAAR, Michigan          GWEN GRAHAM, Florida
DAN NEWHOUSE, Washington

                                  (ii)















                             C O N T E N T S

                              ----------                              
                                                                   Page
Davis, Hon. Rodney, a Representative in Congress from Illinois, 
  opening statement..............................................     1
    Prepared statement...........................................     3
    Submitted letter.............................................    31
DelBene, Hon. Suzan K., a Representative in Congress from 
  Washington, opening statement..................................     4

                               Witnesses

Johansson, Ph.D., Robert, Acting Chief Economist, U.S. Department 
  of Agriculture, Washington, D.C................................     5
    Prepared statement...........................................     7
Jones, Hon. Jim, Assistant Administrator, Office of Safety and 
  Pollution Prevention, Environmental Protection Agency, 
  Washington, D.C................................................     9
    Prepared statement...........................................    11

 
                     HEARING TO REVIEW THE FEDERAL
                  COORDINATION AND RESPONSE REGARDING
                           POLLINATOR HEALTH

                              ----------                              


                        WEDNESDAY, MAY 13, 2015

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:31 p.m., in 
Room 1300, Longworth House Office Building, Hon. Rodney Davis 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Davis, Thompson, Scott, 
Denham, Yoho, Moolenaar, Newhouse, DelBene, McGovern, Kuster, 
and Graham.
    Staff Present: Haley Graves, Jessica Carter, John Goldberg, 
Mary Nowak, Mollie Wilken, Patricia Straughn, Ted Monoson, 
Keith Jones, Liz Friedlander, and Nicole Scott.

  OPENING STATEMENT OF HON. RODNEY DAVIS, A REPRESENTATIVE IN 
                     CONGRESS FROM ILLINOIS

    The Chairman. This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research to review the Federal 
coordination and response regarding pollinator health, will 
come to order.
    At this point, I would like to give my own opening 
statement. Good afternoon. I would like to welcome everyone to 
this hearing in which we will continue to examine the aspects 
of pollinator health. As many of you are aware, the Agriculture 
Committee has had a long interest in examining and promoting 
pollinator health. In both the 2008 and 2014 Farm Bills, 
provisions were included to authorize pollinator research and 
extension programs, improve capacity and infrastructure within 
the USDA to promote long-term pollinator health, and authorize 
expanded surveillance of pests and diseases affecting 
pollinators.
    Following the passage of the 2014 Farm Bill, this 
Subcommittee commenced an oversight process focusing on 
specific threats to pollinator health under the leadership of 
former Chairman Austin Scott. In a hearing held just over a 
year ago, we heard from public and private sector scientists. 
While there were many factors discussed contributing to 
pollinator health, one factor leading most lists was the threat 
associated with the parasitic mite known as the Varroa 
destructor. The lead bee researcher at USDA, Dr. Jeff Pettis, 
referred to this mite as a modern honey bee plague and 
suggested it has been responsible for the deaths of massive 
numbers of colonies both within the United States and 
worldwide. Nevertheless, despite the overwhelming consensus 
within the scientific community regarding the relative 
importance of the various factors contributing to overall 
pollinator health, the factor near the bottom of the scientific 
community's list seems to be the factor highest on the list of 
activist groups.
    Pesticides and, in particular, a new family of pesticides 
known as neonics seem to be attracting the lion's share of 
media and public interest attention. Neonics can be applied to 
the plant or used as a seed treatment. They are highly 
effective and have seen very rapid adoption rates among 
producers because of the significant benefits they offer. It is 
frustrating that efforts to innovate and employ new, proven 
technologies to enhance our ability to produce food, feed, and 
fiber, are constantly under attack.
    Shortly after our hearing last year, the President issued 
an Executive Memorandum establishing a White House task force 
to review pollinator health. The main focus of the work was to 
be on expanding habitat for pollinators. I should note that the 
task force findings were supposed to be released at the end of 
2014. But, unfortunately, 5 months later, we are still waiting 
on this report. The Order also directed the various departments 
and agencies assigned to the task force to work together to 
develop a national pollinator health strategy. While 
coordination and communication were understood to be a central 
tenet of this Executive Order, only days after receiving the 
Order, the National Wildlife Refuge System announced a ban on 
neonics and biotech plants without a single effort to 
communicate with either the USDA or the EPA their intentions or 
justification.
    I would note that the Secretary of Agriculture and 
Administrator of the EPA were appointed to co-chair the 
President's task force. As both agencies were completely caught 
off guard by this announcement, each expressed frustration with 
the lack of communication. We would reasonably expect, in light 
of this surprise announcement by an agency within the 
Department of the Interior, the USDA and EPA would double down 
on their efforts to enhance Federal coordination and 
communication. Unfortunately, just 2 months later, EPA released 
a study of the benefits of neonic seed treatment on soybeans 
with little to no input from the USDA.
    USDA's Chief Economist sent a letter to the EPA disagreeing 
with the assessment, referring to it as incomplete, premature, 
and unnecessarily burdensome to the task before farmers and 
ranchers to produce food, feed, and fiber, for a strong and 
healthy America. That letter is in Members' folders and will be 
made part of today's hearing record.
    [The information referred to is located on p. 31.]
    The Chairman. Examples like this are why we fought so hard 
in the farm bill to give ag a seat at the table when EPA is 
considering rules and regulations that would impact farmers. I 
expect EPA's Science Advisory Board to follow Congressional 
intent and give farmers that voice so better policy can be 
made. Today, USDA and EPA both have a seat at the table, and I 
look forward to your testimony.
    [The prepared statement of Mr. Davis follows:]

 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
                             from Illinois
    Good afternoon,
    I would like to welcome everyone to this hearing in which we will 
continue to examine aspects of pollinator health.
    As many of you are aware, the Agriculture Committee has had a long 
interest in examining and promoting pollinator health. In both the 2008 
and 2014 Farm Bills, provisions were included to authorize pollinator 
research and extension programs, improve capacity and infrastructure 
within USDA to promote long-term pollinator health, and to authorize 
expanded surveillance of pests and diseases affecting pollinators.
    Following passage of the 2014 Farm Bill, this Subcommittee 
commenced an oversight process focusing on specific threats to 
pollinator health. In a hearing held just over a year ago, we heard 
from public and private sector scientists. While there were many 
factors discussed contributing to pollinator health, one factor leading 
most lists was the threat associated with a parasitic mite known as 
Varroa destructor.
    The lead bee researcher at USDA, Dr. Jeff Pettis referred to this 
mite as a ``modern honey bee plague'' and suggested that it has been 
responsible for the deaths of massive numbers of colonies both within 
the United States and worldwide.
    Nevertheless, despite the overwhelming consensus within the 
scientific community regarding the relative importance of the various 
factors contributing to overall pollinator health, the factor near the 
bottom of the scientific community's list seems to be the factor 
highest on the list of activist groups.
    Pesticides, and in particular a new family of pesticides known as 
Neonics seem to be attracting the lion share of media and public 
interest attention.
    Neonics can be applied to the plant or used as a seed treatment. 
They are highly effective and have seen a very rapid adoption rate 
among producers because of the significant benefits they offer. It is 
frustrating that efforts to innovate and employ new, proven 
technologies to enhance our ability to produce food, feed, and fiber 
are constantly under attack.
    Shortly after our hearing last year, the President issued an 
Executive Memorandum establishing a White House Task force to review 
pollinator health. The main focus of the work was to be on expanding 
habitat for pollinators. I should note that the Task Force findings 
were supposed to be released at the end of 2014, but unfortunately, 5 
months later we are still waiting for this report.
    The Order also directed the various Departments and agencies 
assigned to the task force to work together to develop a National 
Pollinator Health Strategy. While coordination and communication were 
understood to be a central tenant of this Executive Order, only days 
after receiving the Order, the National Wildlife Refuge System 
announced a ban on neonics and biotech plants without a single effort 
to communicate with either USDA or EPA their intentions or 
justification. I would note that the Secretary of Agriculture and 
Administrator of the EPA were appointed to co-chair the President's 
task force. As both agencies were completely caught off guard by this 
announcement, each expressed frustration with the lack of 
communication.
    We would reasonably expect that in light of this surprise 
announcement by an agency within the Department of the Interior, the 
USDA and EPA would double down on their efforts to enhance Federal 
coordination and communication. Unfortunately, just 2 months later, EPA 
released a study on the benefits of neonic seed treatment on soybeans 
with little to no input from USDA. USDA's Chief Economist sent a letter 
to EPA disagreeing with the assessment referring to it as incomplete, 
premature, and unnecessarily burdensome to the task before farmers and 
ranchers to produce food, feed, and fiber for a strong and healthy 
America. That letter is in Members' folders and will be made part of 
today's hearing record
    Examples like this are why we fought so hard in the farm bill to 
give agriculture a seat at the table when EPA is considering rules and 
regulations that would impact farmers. I expect EPA's Science Advisory 
Board to follow Congressional intent and give farmers that voice so 
better policy can be made.
    Today, USDA and EPA both have a seat at the table.
    I look forward to your testimony.

    The Chairman. And I would like to now recognize the Ranking 
Member, Ms. DelBene, for her opening statement.

OPENING STATEMENT OF HON. SUZAN K. DelBENE, A REPRESENTATIVE IN 
                    CONGRESS FROM WASHINGTON

    Ms. DelBene. Thank you, Mr. Chairman. Thanks for calling 
this hearing. And I want to thank our witnesses for being here 
with us this afternoon. As the Subcommittee undertakes our 
responsibility to examine pollinator health, it will be 
important to understand as fully as possible the role that the 
seed treatments and other crop protectants play in growers' 
overall pest management decisions. In my view, there is no 
simple answer to the question of their value. Some growers may 
be justified in using the seed treatments, while others may 
find little or no need to do so. I do want to caution, though, 
about any of us reaching any conclusions from a single hearing. 
This issue is far too complex for talking points. And this 
issue demands our thoughtful and methodical attention. And I 
hope that we will hold future hearings to further explore this 
complex issue.
    I hope that we will get the opportunity to hear from 
beekeepers, fruit and vegetable growers, economic 
entomologists, and other experts. In light of all the recent 
press focusing on the use of neonic seed treatments, I have to 
wonder why today's hearing did not include these parties but, 
instead, is centered on what seems to be more of an insular 
issue between two Federal agencies. And while I respect our 
witnesses' expertise, I believe Members of the Subcommittee 
would have been better served by first hearing from those on 
the ground and in the field, those who must make on an 
individual basis thoughtful decisions on the use of crop 
protection chemistries.
    By focusing on the perception of a disagreement between 
agencies during an open and transparent public comment process, 
we reduce our oversight role to refereeing. The testimony 
provided by constituent witnesses, the beekeepers and growers 
who we represent, can help inform the policy decisions we make 
with administrative agencies. My goal is to ensure that 
individual growers have the tools needed to make the best pest 
management decisions given their individual circumstances of 
crop, climate, and ecological sensitivity.
    Mr. Chairman, I look forward to hearing from our witnesses 
today. And I encourage future hearings on this important issue. 
And I yield back.
    The Chairman. Thank you, Ms. DelBene.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony and to ensure that there is ample time for 
questions.
    The chair would like to remind Members that they will be 
recognized for questioning in order of seniority for Members 
who were present at the start of the hearing. After that, 
Members will be recognized in order of their arrival. I 
appreciate Members' understanding.
    Witnesses are reminded to limit their oral presentations to 
5 minutes. And just like Chairman Conaway has been a stickler 
for that, we will be here too. All written statements will be 
included in the record.
    I would like to welcome our witnesses to the table. First 
off, Dr. Robert Johansson. He is the Acting Chief Economist 
with the USDA here in Washington, D.C. And Mr. Jim Jones, the 
Assistant Administrator, Office of Chemical Safety and 
Pollution Prevention, part of the EPA. Dr. Johansson, please 
begin your testimony when ready.

 STATEMENT OF ROBERT JOHANSSON, Ph.D., ACTING CHIEF ECONOMIST, 
                U.S. DEPARTMENT OF AGRICULTURE,
                        WASHINGTON, D.C.

    Dr. Johansson. Chairman Davis, Ranking Member DelBene, and 
other Members of the Subcommittee, thank you for the 
opportunity to be at today's hearing on the Federal 
coordination and response regarding pollinator health. With 
more than 75 percent of flowering plants relying on 
pollinators, their health is important to USDA and to all of us 
consumers. The value of honey production in the U.S. has 
increased in volume and value terms by about 20 percent in 2014 
relative to 2013. And that is from the USDA honey report that 
NASS does each year. That has been rising to 178.2 million 
pounds produced and $38.5 million respectively. The estimated 
value earned by honey producers in 2014 is more than double 
that of 1994, even adjusting for inflation. However, production 
volume is lower by about 18 percent relative to that year.
    The current average price of about $2.16 a pound is a 
record high, indicating the increasing value that U.S. 
consumers place on honey. U.S. imports of honey have also 
reached historic highs, doubling in volume between 2004 and 
2013 to about 154,000 metric tons. U.S. honey producers are 
responding to those higher honey prices. The number of 
producing colonies and average production per colony grew from 
2.6 million colonies producing 57 pounds per year in 2013, to 
2.7 million colonies at 65 pounds per colony of production in 
2014. Although there is still plenty of room for growth, in 
1993 there were more than 3 million colonies producing at 73 
pounds of production per colony. Furthermore, the rental fees 
that producers charge for pollination services continue to rise 
due to increasing demand for those services.
    The average rental rate per hive doubled between 2005 and 
2009 to more than $150. Indeed in 2012, the fees charged for 
honey bee pollination services exceeded $650 million. However, 
annual losses of colonies remains high, making it difficult to 
meet that rising demand for pollination services. Although the 
national trend data we currently have is limited, we know that 
beekeepers lost roughly 34 percent of their colonies during 
2013-2014, down from 45 percent the year before, but still very 
high. And, of course, this morning's report on preliminary 
numbers for 2014-2015 from the Bee Informed Partnership, shows 
that losses of managed honey bee colonies were 23.1 percent for 
the 2014-2015 winter, down 6.6 percent from the previous year. 
However, for the first time, summer losses exceeded winter 
losses, making annual losses for the year a very high 42.1 
percent.
    To promote the health of honey bees and other pollinators, 
President Obama issued his June 20, 2014 Memorandum, as you had 
mentioned, Mr. Chairman, charging Federal departments and 
agencies with taking steps to help restore pollinator 
populations. The Federal Government is poised to lead in this 
effort, given its broad, national perspective and ability to 
identify and prioritize goals and programs that extend beyond 
state and national borders. Understanding the Federal 
Government cannot act alone in promoting pollinator protection, 
the President also identified the need for public-private 
partnerships, as well as increasing citizen engagement. To 
accomplish that effort, the President created the Pollinator 
Health Task Force, co-chaired by, as you noted, the Secretary 
of the USDA and the Administrator of EPA.
    USDA has a rich history in partnering with other Federal 
agencies and numerous stakeholders in recognizing that the 
collaborative effort is much more effective in achieving 
success. And USDA agencies are providing important 
contributions to the protection of pollinators. Our research 
agencies, including ARS, NIFA, ERS, and NASS, conduct and 
support that research. The Office of Pest Management Policy 
coordinates our pest management work across the department with 
EPA. And APHIS conducts a national survey of honey bee pests 
and diseases and collaborates with others on ways to manage, 
suppress, and eradicate pests and diseases.
    Our conservation programs, including those managed by the 
FSA and NRCS, support pollinator habitat across the country. 
And the U.S. Forest Service supports outreach, technology 
transfer, and pollinator habitat. The Office of the Chief 
Economist will typically be asked to review and analyze issues 
that may fall under the purview of those activities. Such 
review and analysis may occur as a normal part of the operation 
of my office. As such, I will describe some of our 
responsibilities, providing some examples of how we interact 
with EPA and their activities.
    The main mission of my office is to advise the Secretary of 
Agriculture on the economic prospects of ag markets and on the 
economic implications of policies and programs affecting U.S. 
food and fiber production in rural areas, to ensure the public 
has consistent, objective, and reliable agricultural forecasts, 
and to promote effective and efficient rules governing USDA 
programs.
    Areas of major analyses include international trade 
agreements, risk-sharing institutions, crop insurance, 
commodity programs, developments in commodity markets, 
sustainable development, and ag labor. I see that I am running 
out of time, so I am going to note just a couple areas of 
coordination with EPA. And, certainly, my testimony is 
submitted for the record for those Members that wish to review 
that.
    USDA collaborates with EPA on a number of key issues, such 
as the Federal Pollinator Health Task Force. Many offices 
within USDA have established working relationships with EPA 
that date back to the Agency's founding. My office, in 
particular, coordinates review of USDA and other agencies' 
significant rulemakings and has a long history of collaboration 
with EPA on those issues.
    An example is the work that we did on the Ag Worker 
Protection Standard last year. We provided input into that 
process. As part of the Federal Insecticide, Fungicide, and 
Rodenticide Act, FIFRA, EPA must provide the Secretary of 
Agriculture a copy of the rule and give USDA the opportunity to 
review and comment. I will also note that we also work with EPA 
on a number of issues, including the Clean Water Act, and the 
Clean Air Act.
    And with that, I will conclude, just to note that I thank 
you for inviting me to provide some perspective on pollinator 
issues, as well as the role of the Office of the Chief 
Economist. Thank you very much.
    [The prepared statement of Dr. Johansson follows:]

Prepared Statement of Robert Johansson, Ph.D., Acting Chief Economist, 
            U.S. Department of Agriculture, Washington, D.C.
    Chairman Davis, Ranking Member DelBene, and other Members of the 
Subcommittee, thank you for the opportunity to be at today's hearing on 
the Federal coordination and response regarding pollinator health. With 
more than 75 percent of flowering plants relying on pollinators, their 
health is important to the U.S. Department of Agriculture (USDA) and to 
all of us as consumers.
    The value of honey production in the United States increased in 
volume and value terms by about 20 percent in 2014 relative to 2013 
(USDA-NASS Honey Report; 2015, 1995) rising to 178.2 million pounds 
produced and $385.2 million, respectively. The estimated value earned 
by honey producers in 2014 is more than double that of 1994 adjusting 
for inflation. However, production volume is lower by about 18 percent 
relative to 1994.\1\ The current average price of $2.16 per pound is a 
record high indicating the increasing value that U.S. consumers place 
on honey (average of retail, private, and co-op pricing). U.S. imports 
of honey have also reached historic highs, nearly doubling in volume 
between 2004 and 2013 to 154 thousand metric tons (USDA-ERS 2014).\2\
---------------------------------------------------------------------------
    \1\ http://usda.mannlib.cornell.edu/MannUsda/
viewDocumentInfo.do?documentID=1191.
    \2\ http://www.ers.usda.gov/publications/sssm-sugar-and-sweeteners-
outlook/sssm-314.aspx.
---------------------------------------------------------------------------
    U.S. honey producers are responding to higher honey prices; the 
number of producing colonies and average production per colony grew 
from 2.6 million colonies producing 57 pounds per year in 2013 to 2.7 
million colonies at 65 pounds per colony of production in 2014. There 
is still plenty of room for growth; in 1993, there were more than three 
million colonies at 73 pounds of production per colony.\3\ Furthermore 
the rental fees that producers charge for pollination services 
continues to rise due to increasing demand. The average rental rate per 
hive doubled between 2005 and 2009 to more than $150. In 2012 the fees 
charged for honeybee pollination services exceeded $650 million (USDA-
ERS 2014).\4\ However, annual loss of colonies remains high, making it 
difficult to meet rising demand for pollination services. Although the 
national trend data we currently have is limited, we know that 
beekeepers lost 34 percent of their colonies during 2013-14, down from 
45 percent the year before, but still very high.\5\
---------------------------------------------------------------------------
    \3\ http://usda.mannlib.cornell.edu/MannUsda/
viewDocumentInfo.do?documentID=1191.
    \4\ http://www.ers.usda.gov/media/1679173/special-article-
september_-pollinator-service-market-4-.pdf.
    \5\ Lee, et al. (2015) ``A national survey of managed honey bee 
2013-2014 annual colony losses in the USA,'' Apidologie 46(3), pp. 292-
305.
---------------------------------------------------------------------------
    To promote the health of honeybees and other pollinators, President 
Obama issued his June 20, 2014 Presidential Memorandum charging Federal 
departments and agencies with taking steps to help restore pollinator 
populations. The Federal Government is poised to lead this effort, 
given its broad national perspective and ability to identify and 
prioritize goals and programs that extend beyond state and national 
borders. Understanding that the Federal Government cannot act alone in 
promoting pollinator protection, the President also identified the need 
for public-private partnerships as well as increased citizen 
engagement. To accomplish this effort, the President created the 
Pollinator Health Task Force, co-chaired by the Secretary of the USDA 
and the Administrator of the Environmental Protection Agency (EPA).
    USDA has a rich history in partnering with other Federal agencies 
and numerous stakeholders in recognizing that the collaborative effort 
is much more effective in achieving success. USDA agencies are 
providing important contributions to the protection of pollinators. Our 
research agencies, including the Agricultural Research Service (ARS), 
National Institute of Food and Agriculture (NIFA), Economic Research 
Service (ERS), and National Agricultural Statistics Service (NASS) 
conduct and support research. As a recent example of this scientific 
collaboration, NASS has initiated a series of national colony loss 
surveys, which will provide the statistical foundation for several 
other Federal agencies conducting scientific work in this area. The 
Office of Pest Management Policy (OPMP) coordinates pest management 
work across the Department and with the Environmental Protection 
Agency. The Animal and Plant Health Inspection Service (APHIS) conducts 
a national survey of honey bee pests and diseases and collaborates with 
others on ways to manage, suppress, and eradicate pests and diseases. 
We are exploring ways to further leverage this work with our colony 
loss survey program, so that detailed results regarding honey bee 
health can be generalized to the nation as a whole. Our conservation 
programs, including those managed by the Farm Service Agency (FSA) and 
the Natural Resources Conservation Service (NRCS), support pollinator 
habitat across the country. And, the Forest Service (USFS) supports 
outreach, technology transfer, and pollinator habitat.
    The Office of the Chief Economist (OCE) will typically be asked to 
review and analyze various issues that may fall under the purview of 
those activities. Such, review and analysis may occur as part of the 
normal operation of my office. As such, I will describe some of our 
responsibilities and provide some examples of how we interact with EPA 
and their activities.
The Office of the Chief Economist
    The main mission of the Office of the Chief Economist is to advise 
the Secretary of Agriculture on the economic prospects in agricultural 
markets and on the economic implications of policies and programs 
affecting the U.S. food and fiber system and rural areas; ensure the 
public has consistent, objective and reliable agricultural forecasts; 
and to promote effective and efficient rules governing USDA programs. 
Areas of major analyses include international trade agreements, risk-
sharing institutions, crop insurance, commodity programs, developments 
in commodity markets, sustainable development, and agricultural labor.
    OCE serves as the focal point for the nation's economic 
intelligence, analysis, and review related to domestic and 
international food and agriculture. The World Agricultural Outlook 
Board (or the World Board) is housed within OCE and coordinates and 
oversees clearance of all commodity and aggregate agricultural data 
used to develop USDA outlook and situation information. The World Board 
publishes the monthly World Agricultural Supply and Demand Estimates 
report, which shows U.S. farmers, policymakers, and traders what's 
going on in the world of farm commodity forecasts at a single moment in 
time. The World Board also publishes the Weekly Weather and Crop 
Bulletin, an international summary of crop-related weather 
developments.
    Four other offices are located within the Office of the Chief 
Economist.

  <bullet> The Climate Change Program Office functions as the 
        Department-wide coordinator of agriculture, rural and forestry-
        related global change program and policy issues facing USDA. 
        The Office ensures that USDA is a source of objective, 
        analytical assessments of the effects of climate change and 
        proposed response strategies.

  <bullet> The Office of Environmental Markets supports the Secretary 
        in the development of emerging markets for water quality, 
        carbon sequestration, wetlands, biodiversity, and other 
        ecosystem services.

  <bullet> The Office of Energy Policy and New Uses advises the 
        Secretary of Agriculture in developing and coordinating USDA 
        energy policy, programs, and strategies related to energy and 
        biobased products, and coordinates USDA activities related to 
        energy and biobased products within and outside the USDA.

  <bullet> The Office of Risk Assessment and Cost-Benefit Analysis 
        ensures that major USDA regulations affecting the environment, 
        human health or human safety are based on sound scientific and 
        economic analysis. The Office reviews and provides guidance to 
        agencies on risk assessments and cost-benefit analyses.
Coordination with EPA
    The Department of Agriculture collaborates with the EPA on a number 
of key issues, such as on the Federal Pollinator Health Task Force. 
Many offices within the USDA have established working relationships 
with the EPA that date back to the Agency's founding.
    As you know, the USDA works to support the American agricultural 
economy to strengthen rural communities; to protect and conserve our 
natural resources; to increase agricultural production and export; and 
to provide a safe, sufficient, and nutritious food supply for the 
American people. The USDA encourages sufficient and efficient 
production of food, fiber and forest products for the public welfare 
and manages and conserves many of the nation's natural resources. The 
EPA administers and enforces Federal laws designed to protect the 
nation's land, water, and air systems so that they may support life. 
The laws administered by EPA address air and water pollution, solid and 
hazardous waste management, pesticides and toxic substances and 
radiation protection. Many of EPA's actions--pesticide regulation, 
point and non-point source pollution control, solid waste management, 
air regulation, renewable fuel feedstock regulation--affect rural and 
agricultural communities. Through cooperation on environmental issues 
affecting agriculture and rural communities, the EPA and the USDA have 
developed strong working relationships.
    My office, in particular, coordinates review of USDA and other 
agencies' significant rulemakings and has a long history of 
collaboration with the EPA. An example of how USDA and EPA have worked 
together is the Agricultural Worker Protection Standard. In July 2013, 
EPA notified USDA that the proposed rule and economic analysis were 
ready for review. Under the Federal Insecticide, Fungicide, and 
Rodenticide Act (FIFRA), EPA must provide the Secretary of Agriculture 
a copy of a rule and give USDA the opportunity to review and comment. 
The Office of Pest Management Policy was created in 1997 to coordinate 
the USDA's role in the pesticide regulatory process. USDA's Office of 
Pest Management Policy invited EPA to brief USDA to provide an overview 
of the proposed rule and shortly after that briefing, the proposed rule 
arrived. In reviewing the economic analysis OCE helped enhance some 
assumptions that EPA had developed. The early deliberations resulted in 
improvements to some components in the draft proposed rule prior to the 
delivery of to the Office of Management and Budget (OMB) for 
interagency review and then for public comment.
    The Office of the Chief Economist also works with EPA on non-
regulatory matters. For example, the Office of the Chief Economist 
through its Office of Environmental Markets has been working closely 
with EPA to develop and expand market-based approaches to conservation 
in the Chesapeake Bay watershed. Market approaches can lower costs for 
those complying with water quality requirements and create new revenue 
streams for farmers. In 2013, USDA and EPA entered into a Department-
level partnership agreement on water quality trading. Through this 
agreement USDA and EPA are collaborating on new tools and information 
to help the states in the region reduce costs in program design and 
implementation, improve environmental performance, and foster 
consistency. Under the agreement, OCE and EPA have jointly developed a 
web-based information support tool that links policy guidance from EPA 
with examples and materials from existing trading programs. That 
partnership has allowed USDA and EPA to better meet the needs of the 
states and should create new opportunities for farmers in the region 
while lowering the costs of improving water quality in the Chesapeake 
Bay.
    We also work with EPA on a variety of Clean Air Act issues, such as 
our public comments to EPA's Science Advisory Board on the accounting 
framework for biogenic greenhouse gas emissions. As another example, my 
office and EPA cooperate on efforts to quantify and report national 
greenhouse gas emissions and sinks. USDA provides estimates of forest 
carbon stocks and sequestration and works closely with EPA to estimate 
greenhouse gas emissions and sinks from the agricultural sector. EPA 
includes that information in the annual U.S. Greenhouse Gas Inventory.
Conclusion
    Thank you for inviting me to provide some perspective on pollinator 
issues as well as the role of the Office of the Chief Economist.

    The Chairman. Thank you, Dr. Johansson.
    Mr. Jones, feel free to give your opening testimony.

             STATEMENT OF HON. JIM JONES, ASSISTANT
         ADMINISTRATOR, OFFICE OF SAFETY AND POLLUTION
 PREVENTION, ENVIRONMENTAL PROTECTION AGENCY, WASHINGTON, D.C.

    Mr. Jones. Thank you, Chairman Davis, Ranking Member 
DelBene, and Members of the Subcommittee. My name is Jim Jones, 
and I serve as the Assistant Administrator for the 
Environmental Protection Agency's Office of Chemical Safety and 
Pollution Prevention, which is the office that is responsible 
for Federal pesticide regulation in the United States.
    Pollinator protection is an extremely high priority for the 
EPA. Over the past several years, we have taken many steps to 
develop scientifically sound analytical techniques for 
assessing the potential impacts of pesticides on pollinators 
and have acted, based on this science, to reduce those 
exposures determined to be of most significant risk. As the 
science continues to advance through the registration review 
programs, the Agency will continue to work with stakeholders to 
put in place any additional mitigation strategies to continue 
to protect pollinators. As you well know, pollinators are 
responsible for nearly one in every three bites of food you 
eat. In addition, they contribute nearly $15 billion to the 
nation's economy. Loss of our pollinator populations have the 
potential to not only threaten agricultural production but to 
also threaten natural plant communities and important services 
provided by ecosystems.
    Researchers studying pollinator health have been unable to 
identify a single cause for pollinator declines and have 
concluded that losses of honey bee colonies are likely the 
result of a complex interaction of a number of stressors. In 
May 2013, the U.S. Department of Agriculture and the EPA 
released a comprehensive scientific report on honey bee health. 
This report synthesized the current state of knowledge 
regarding the primary factors that scientists believe have the 
greatest impact on managed bee health. These factors include 
exposures to pests and pathogens, poor nutrition due to 
decreased availability of high-quality forage, exposure to 
pesticides, and bee biological genetics and breeding. Each play 
a role in impacting managed bee health and likely also impact 
the health of native pollinators. It is because of these many 
factors and in light of the emerging science that in June 2014, 
President Obama established the Pollinator Health Task Force, 
co-chaired by USDA and EPA.
    In the very near future, the strategy developed by the task 
force will be released and is the result of a strong 
interagency collaboration with a focus on improving pollinator 
health and increasing pollinator habitat. Of all the stressors 
impacting pollinators, the EPA has a role to play in two areas. 
First, ensuring that new and existing products do not cause 
unreasonable adverse effects to pollinators. And, second, 
registering new products for beekeepers to use in controlling 
hive pests such as Varroa mites. Pesticides play a critical 
role in agricultural production and the health of our society. 
Pesticides can also lead to adverse ecological and human health 
consequences.
    Congress has entrusted the EPA to balance the risks and 
benefits of pesticide use. Mitigating the effects of pesticides 
on bees, many of which are intended to kill insects, is a 
difficult task but is also a priority for the Federal 
Government, as both bee pollination and insect control are 
essential to the success of agriculture. The EPA is working to 
reduce bees' exposure to pesticides without losing the ability 
to control pests in agriculture. Certain pesticides are also 
important pest management tools for beekeepers to control the 
Varroa mite or hive beetles. This is an inherently difficult 
goal to achieve since the pesticide, such as those intended to 
control Varroa mites on bees, essentially seek to control the 
mite while not harming the bee colony.
    To achieve these goals, EPA has focused its pollinator 
efforts in three primary areas. Advancing the science and 
understanding of the potential impact of pesticides on 
pollinators. Second, taking appropriate risk management actions 
based upon the available science. And, third, collaborating 
with domestic and international partners to advance pollinator 
protections. In the near future, as part of the rollout of the 
pollinator health strategy, the EPA will soon announce 
additional initiatives for continuing to improve pollinator 
health. We will take those actions based upon the best 
available science and utilizing our longstanding principles of 
public engagement and transparency.
    The EPA will also continue to work with USDA and other 
Federal and state agencies to protect pollinators, while 
ensuring that growers can meet their pest control needs in 
order to maintain a diverse ecosystem and provide for a healthy 
and abundant United States food supply. I am happy to answer 
any questions from the Subcommittee.
    [The prepared statement of Mr. Jones follows:]

 Prepared Statement of Hon. Jim Jones, Assistant Administrator, Office 
 of Safety and Pollution Prevention, Environmental Protection Agency, 
                            Washington, D.C.
    Thank you Mr. Chairman.
    My name is Jim Jones and I serve as the Assistant Administrator for 
the Environmental Protection Agency's Office of Chemical Safety and 
Pollution Prevention. Pollinator protection is an extremely high 
priority for the EPA. Over the past several years we have taken many 
steps to develop scientifically sound analytical techniques for 
assessing the potential impacts of pesticides on pollinators and have 
acted, based upon this science, to reduce those exposures determined to 
be of most significant risk. As the science continues to advance, 
through the registration and registration review programs, the agency 
will continue to work with stakeholders to put in place any additional 
mitigation strategies to continue to protect pollinators.
    As you well know, pollinators are responsible for nearly one in 
every three bites of food you eat. In addition, they contribute nearly 
$15 billion to the nation's economy. Losses of our pollinator 
populations have the potential to not only threaten agricultural 
production, but to also threaten natural plant communities and 
important services provided by ecosystems.
    Researchers studying pollinator health have been unable to identify 
a single cause for pollinator declines and have concluded that losses 
of honey bee colonies are likely the result of a complex interaction of 
a number of stressors. In May 2013, the U.S. Department of Agriculture 
(USDA) and the EPA released a comprehensive scientific report on honey 
bee health. This report synthesized the current state of knowledge 
regarding the primary factors that scientists believe have the greatest 
impact on managed bee health. These factors include: exposures to pests 
and pathogens; poor nutrition due to decreased availability of high 
quality forage; exposure to pesticides; and bee biological genetics and 
breeding. Each play a role in impacting managed bee health and likely 
also impact the health of native pollinators. It is because of these 
many factors, and in light of the emerging science, that in June 2014, 
President Obama established the Pollinator Health Task Force, co-
chaired by the USDA and the EPA. In the very near future, the strategy 
developed by the task force will be released and is the result of a 
strong interagency collaboration with a focus of improving pollinator 
health and increasing pollinator habitat.
    Of all of stressors impacting pollinators, the EPA has a role to 
play in two areas: first, ensuring that the new and existing products 
do not cause unreasonable adverse effects to pollinators; and second, 
registering new products for beekeepers to use in controlling hive 
pests such as Varroa mites. Pesticides play a critical role in 
agricultural production and the health of our society. If misused or 
overused, however, pesticides can also lead to adverse ecological and 
human health consequences. Congress has entrusted the EPA to balance 
the risks and benefits of pesticide use. Mitigating the effects of 
pesticides on bees, many of which are intended to kill insects, is a 
difficult task but is also a priority for the Federal Government, as 
both bee pollination and insect control are essential to the success of 
agriculture. The EPA is working to reduce bees' exposure to pesticides 
without losing the ability to control pests in agriculture. Certain 
pesticides are also important pest management tools for beekeepers to 
control the Varroa mite or hive beetles. This is an inherently 
difficult goal to achieve since the pesticide, such as those intended 
to control Varroa mites on bees, essentially seek to control the mite 
while not harming the bee colony.
    To achieve these goals, the EPA has focused its pollinator efforts 
in three primary areas: (1) advancing the science and understanding of 
the potential impact of pesticides on pollinators; (2) taking 
appropriate risk management actions, based upon the available science; 
and (3) collaborating with domestic and international partners to 
advance pollinator protection.
    Addressing potential risks associated with pollinator exposure to 
pesticides necessitates that a robust and scientifically supported 
assessment framework be in place. In January 2011, the EPA convened a 
workshop through the Society of Environmental Toxicology and Chemistry 
to explore the current state of the science on pesticide risk 
assessment for pollinators. Working with a cross-section of 
stakeholders and scientists from around the world, the outcomes from 
this workshop provided the scientific foundations for a new pollinator 
risk assessment framework. Through collaboration with our regulatory 
partners in Canada and the state of California, the EPA submitted these 
new scientific techniques to the FIFRA Scientific Advisory Panel in 
September 2012. Through this new framework, the EPA has identified the 
types of data, both hazard and exposure, that are needed to properly 
assess the potential impacts of pesticides on pollinators. The 
framework:

  <bullet> relies on a tiered process;

  <bullet> focuses on the major routes of exposure, including contact 
        and dietary exposure; and

  <bullet> distinguishes different types of pesticide treatments, such 
        as compounds applied to plant leaves or seed/soil-applied 
        (systemic) compounds.

    Working through the Organization for Economic Cooperation and 
Development, the EPA serves as the co-chair of the Pesticide Effects on 
Insect Pollinators Expert Group. Working in collaboration with the 
International Commission on Plant Pollinator Relationships, this group 
is developing harmonized guidelines for conducting the studies used in 
the EPA's risk assessment framework. In addition, we have begun to 
apply this new risk assessment framework in our regulatory decision 
making processes, both for new registrations as well as the re-
evaluation of existing registrations via the registration review 
program.
    Taking risk management action, as supported by the science, is also 
a critical step in protecting pollinators. One such example is the 
initiative that the EPA announced in August 2013 to require new 
pesticide labels that prohibit the use of neonicotinoid products when 
bees are present. Earlier that year, the EPA had determined, based on 
potential effects of these compounds on honeybees and other 
pollinators, as well as bee kill incidents in Oregon and Canada, that 
when used as previously labeled, these products posed a concern for 
potential adverse effects on pollinators. Products bearing these new 
required labeling statements began to appear in the marketplace in 
2014. Since then, the agency has required similar types of labeling for 
other products for which risks to bees have also been identified.
    In addition, the EPA accelerated the re-evaluation of the 
neonicotinoids as part of the registration review process. Working with 
our regulatory partners in Canada and California, we sped up the re-
evaluation schedule for this group of pesticides. The EPA also required 
the registrants for these compounds to develop the necessary pollinator 
data, consistent with our new risk assessment framework. We plan to 
announce, in the near future and consistent with the directive from 
President Obama in his June 2014 Memorandum, a further acceleration of 
this re-evaluation. Additionally, in early April 2015, the agency sent 
letters to registrants of neonicotinoid pesticides with outdoor uses 
informing them that the EPA will generally not be in a position to 
approve these applications for new uses of these compounds until new 
pollinator data have been submitted and more technically robust 
pollinator risk assessments are complete.
    In October 2014, the EPA announced the public availability of a 
benefit analysis conducted as part of the ongoing registration review 
of the neonicotinoid pesticides. The agency's analysis of the benefits 
of neonicotinoid seed treatments for insect control in soybeans 
concluded that there is little or no increase in soybean yields using 
neonicotinoid seed treatments when compared to using no pest control at 
all. Consistent with the EPA's longstanding policies on public 
participation and transparency, we sought public input of this 
analysis. In addition, I personally traveled to the Mississippi Delta 
to meet with soybean growers to better understand their pest control 
needs and the role of these products in their pest management programs. 
We are currently in the process of reviewing the over 40,000 comments 
we received on our analysis. The revised analysis will be incorporated 
into the risk/benefit determination that we will make for these 
products as part of the ongoing registration review of the 
neonicotinoids. Additional benefits analyses for the neonicotinoid 
pesticides may be conducted, as needed, as part of this ongoing re-
evaluation.
    In March 2015, the EPA registered a new miticide, oxalic acid, to 
combat the devastating effects of the Varroa mite on honey bee 
colonies. Oxalic acid was already registered for this use in Canada and 
Europe. Recognizing beekeepers' need for additional registered tools to 
combat the Varroa mite in U.S. honey bee colonies, the EPA collaborated 
with the USDA on the registration. The EPA was able to expedite its 
evaluation in part due to a ``work share'' which allowed Health 
Canada's Pest Management Regulatory Agency (PMRA) to share their data 
reviews with the EPA risk assessors and risk managers. The EPA used the 
existing data and information from PMRA, including updated reviews of 
toxicity, dietary exposure, environmental fate and transport, and 
product chemistry data. After a thorough and priority evaluation of all 
the data, the EPA concurred with the conclusions and registration 
decision made by our Canadian colleagues and approved the registration 
in less than \1/4\ of the time it usually takes.
    Finally, collaboration with domestic and international partners to 
advance pollinator protection is critical. Over the past three years, 
the EPA has co-hosted pollinator summits on several topics, including 
seed treatments, honey bee health, Varroa mites, and forage and 
nutrition. In addition, through the EPA's Pesticide Program Dialogue 
Committee, the EPA sought advice on how to improve pesticide labeling, 
increase methods for reporting bee kill incidents, expand the 
availability of best management practices for reducing pollinator 
exposure to pesticides, and develop a consistent approach for 
investigating bee kill incidents. In response to the advice received, 
the EPA has greatly improved pesticide labels for the neonicotinoids 
and has imposed similar labeling requirements for other pesticides that 
are acutely toxic to bees. We have expanded the various methods that 
bee kill incidents can be reported, both via the EPA's website and 
other mechanisms, and we worked with states to develop a more 
consistent approach and guidance for investigating bee kill incidents. 
We also worked collaboratively with stakeholders and land-grant 
universities to make more publicly available information on best 
management practices for reducing pesticide exposures to bees. The 
President's Fiscal Year 2016 budget request includes additional funding 
for the EPA's pollinator protection efforts, including $1.5 million to 
further the study of acute toxicity amongst honey bee populations and 
to explore additional risk management options, and $500,000 to augment 
the work of states and tribes to develop pollinator protection plans. 
And, as mentioned earlier, we are working with our international 
partners to continue to advance the science and understanding of the 
potential impacts of pesticides on pollinators.
    In the near future, as part of the roll out of the Pollinator 
Health Strategy, the EPA will soon announce additional initiatives for 
continuing to improve pollinator health. We will take those actions 
based upon the best available science and utilizing our longstanding 
principles of public engagement and transparency. The EPA we will also 
continue to work with the USDA and other Federal and state agencies to 
protect pollinators while also ensuring that growers can meet their 
pest control needs in order to maintain a diverse ecosystem and provide 
for a healthy and abundant United States food supply.

    The Chairman. Thank you, Mr. Jones.
    In light of the fact that they are about ready to call a 
vote, it looks like it will be one vote, when it happens, I 
will make sure that we stand in recess. And we will come back 
here and continue the line of questioning. But I know one of 
our Members actually has to go to a markup immediately 
following the vote. So I am going to yield my first 5 minutes 
to my colleague, Mr. Moolenaar from Michigan, to ask questions.
    Mr. Moolenaar. Thank you, Mr. Chairman. Dr. Johansson and 
Mr. Jones, I appreciate you being here testifying today and for 
your focus. I just wanted to ask, first, when you talk about 
releasing a strategy, do you have a timeline for that?
    Mr. Jones. Yes. We are talking about something within the 
next several weeks. So it will not be much longer.
    Mr. Moolenaar. Okay. Thank you. And as part of the process, 
I am assuming that there would be a communication strategy of 
broadly communicating that. Will that be part of that strategy?
    Mr. Jones. That is correct.
    Mr. Moolenaar. Okay. If I could, I would also ask your role 
is regarding chemical safety and pollution prevention. And we 
are talking about pesticides but also herbicides. Would that be 
part of your area?
    Mr. Jones. Yes. My office is responsible for pesticide 
regulation at the Federal level of the United States. And 
pesticides are defined under the law as herbicides, 
insecticides, fungicides, rodenticides, basically anything 
designed to kill a pest.
    Mr. Moolenaar. Okay. Got you. One of the things I wanted to 
ask your input on, recently the International Agency on the 
Review of Cancer, which is part of the World Health 
Organization, announced a classification of glyphosate as a 2A 
category probable carcinogen. Are you familiar with that 
conclusion?
    Mr. Jones. Yes, sir.
    Mr. Moolenaar. Okay. It seems that that conclusion 
contradicts other parts of the World Health Organization which 
have reviewed glyphosate and found no evidence of it being a 
carcinogen. And then other regulatory bodies around the world 
have reviewed this also. And I understand that the EPA prepared 
a desk statement and found in 2014 after reviewing 55 
epidemiological studies on the possible cancer and non-cancer 
effects of glyphosate, that it does not warrant any changes in 
the EPA's cancer classification. And I guess the reason I bring 
this up is, first, do you still, given the report that they 
had, are they in communication with you on this, recognizing 
your conclusions with the EPA?
    Mr. Jones. IARC operates independent of the United States 
Government, and of any other government in the world. We are 
making sure that we are looking at everything that they looked 
at before we finalize, well it is not finalized--put a draft 
assessment, which we are going to do in the July timeframe. But 
we collaborated with our colleagues in Canada in the 
development of our assessment.
    So we are making sure that we are looking at everything 
that they looked at. I can say, as a matter of fact, that the 
body of information that was in front of us is much larger than 
the body of information that was in front of the IARC.
    Mr. Moolenaar. So you would stand by your conclusions in 
spite of what they have concluded and based on a broader 
assessment?
    Mr. Jones. Our conclusions, which will be released in the 
July timeframe, we will definitely be standing behind.
    Mr. Moolenaar. Okay. Thank you. And in the next few weeks, 
you expect to release your strategy. And it would be based on 
the sound-science approach that you are using in other areas?
    Mr. Jones. That is correct.
    Mr. Moolenaar. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. I would like to advise Members 
that a series of votes has been called. I anticipate the series 
of votes to last as long as it takes to get you to the floor 
and back. So it should be a very quick series of votes. And as 
long as we get back here, we will call the hearing back in 
order. I would ask that you return quickly so that we can get 
it going again. This hearing will stand in recess subject to 
the call of the chair.
    [Recess.]
    The Chairman. This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research will come to order.
    As we left off, again, welcome, Dr. Johansson, Mr. Jones. 
We will give folks a couple seconds to sit down since I don't 
think anybody thought we would start the hearing again with 
only two Members. But we like to be timely. And, ironically, 
the next questioner is sitting in her chair. So I would like to 
recognize the Ranking Member, Ms. DelBene, for her round of 
questions.
    Ms. DelBene. Thank you, Mr. Chairman. And, again, thank you 
to our witnesses for being with us today.
    Mr. Jones, can you describe for the Committee the benefits 
of moving EPA's pesticide risk assessment process for bees and 
for other insect pollinators from a qualitative to a 
quantitative risk assessment process?
    Mr. Jones. Thanks, Congresswoman. So one of the issues that 
came up as we began to observe the attention being paid to the 
neonicotinoids, was that our assessment wasn't capturing the 
kinds of exposures the honey bee, in particular, could get from 
neonicotinoid exposures because the chemicals are, they behave 
in the environment significantly differently than many of the 
alternatives. And so we developed a way to allow us to 
quantitatively assess the risk associated with this class of 
chemistry to honey bees through the design of a particular 
study. So it will allow us to speak with greater confidence and 
less uncertainty as it relates to the impact of these compounds 
on honey bees.
    Ms. DelBene. And it is my understanding that the EPA has 
begun to employ the new risk assessment framework for bees as 
part of its regulatory decision-making process for all 
pesticide chemistries, and is that correct?
    Mr. Jones. That is correct. We deploy the framework for all 
chemistries. Many chemistries, however, will not trigger the 
higher-tiered studies because of their properties. But we will 
at least think about how those other chemicals--whether, the 
relevance of this new framework is to other pesticides. So it 
won't just be neonicotinoids.
    Ms. DelBene. Dr. Johansson's letter characterizes EPA's 
October 2014 analysis as that of an incomplete risk assessment. 
Now, it seems that EPA simply conducted a literature review 
whose data could inform the risk assessment process. Would that 
be a correct characterization of what you did?
    Mr. Jones. Well, it was a benefits analysis, we were 
looking at the benefits of the chemical, as opposed to what 
risk it poses. So we weren't at all attempting to characterize 
the risks of the compound. We were attempting to characterize 
the benefits. And we got a fair amount of comment from USDA and 
from many others about what they saw that was right about it or 
was wrong about it.
    Ms. DelBene. And so what happens now with all that comment? 
Where do you go from there?
    Mr. Jones. So we will give consideration to all the 
comments that we received, which included field visits. I 
personally went to the Delta at the request of soybean growers 
there to look at their experiences. We will incorporate all of 
that into our final assessment. And then we will bring that 
together with a risk assessment for purposes of risk 
management.
    Ms. DelBene. And you talked about this a little bit in your 
testimony, can you put into perspective in real-world terms how 
important pollinators are to our food supply? My district is a 
specialty crop district. We have lots of fruits and vegetables 
and red raspberries in particular, highest producer per capita.
    So what in real terms would the continued decline and loss 
of pollinators mean for our food supply and for our ecosystems?
    Mr. Jones. That may be a question better answered by Dr. 
Johansson.
    Ms. DelBene. Absolutely.
    Mr. Jones. But they are of critical importance to 
agriculture and to American consumers.
    Ms. DelBene. Dr. Johansson, are you----
    Dr. Johansson. Certainly we know that pollinators are 
important for a good number of crops. For example, as you 
mentioned, specialty crops in particular. A lot of tree crops 
in California, for example, rely 100 percent on pollinator 
services. There has been a range of valuations on the actual 
dollar amount that those contribute to U.S. agriculture as a 
value-added component.
    I mentioned earlier in my testimony that the service fees 
alone were roughly $650 million in 2012. Jim had mentioned that 
some valuations had gone up to upwards of $50 billion. 
Certainly, I have seen estimates anywhere in the range of $15 
to $20 billion per year in terms of the value of the crops that 
are pollinated by pollinators.
    And so putting an actual value on, or how you go about 
estimating the economic value, you would need to look into a 
variety of factors such as alternatives to pollination and that 
kind of thing and sort of net that out. But just from the 
ballpark standpoint, we would say that certainly pollinators 
are providing large value-added to the U.S. ag economy.
    Ms. DelBene. Thank you. Thank you, Mr. Chairman. I yield 
back.
    The Chairman. Thank you, Ms. DelBene. I would like to now 
recognize Mr. Scott from Georgia, for 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman. I 
have a couple of comments before I get into the questions. And 
while I certainly don't blame each of you individually, but it 
shouldn't take a Congressional Committee or a presidential 
directive for the USDA and the EPA to work on an issue of this 
magnitude. There was a lot of talk as we were getting started 
in the testimonies about honey. But the fact of the matter is 
pollination is the real issue for our food supply. I like 
honey. And bees are known for honey. But it is really the 
pollination issue that is of importance to our food supply.
    So I would hope that in the future it wouldn't take 
Congress or the President to get the agencies to work together 
on these issues. And the second thing I would ask or suggest is 
that honey bees and pesticides, those aren't mutually exclusive 
issues. I have concerns, if you will, when we talk about the 
neonicotinoids and other things, that they are becoming 
somewhat the whipping boy here when the pesticides really 
aren't, that is not the primary issue that is the problem.
    The Varroa mite is, in my opinion, one of the biggest 
problems. And my question for you, Mr. Jones, what is the EPA 
doing to make sure that we have the tools to combat that pest 
that has been so devastating to our bee colonies?
    Mr. Jones. Thank you, Congressman. So our role here is to 
make sure that when we get an application for a Varroa mite 
control product, that we expedite our review of it. And we 
actually have a really good example of that in the last 9 
months, where researchers at the Department of Agriculture 
determined that a chemical that had been used for other things, 
oxalic acid, has the potential to control Varroa mite in honey 
beehives and not harm the bee. And so we worked with them on 
developing an application that they then submitted to us. And 
within several months, we had licensed it. So that oxalic acid 
is on the market today. It was a rather short period of time 
from discovery of its potential as a Varroa mite control and 
licensing.
    Mr. Austin Scott of Georgia. All right. So, I appreciate 
that expedited approval. But what we call a discovery, the fact 
of the matter is that was already being used in Canada I 
believe for this very issue, wasn't it?
    Mr. Jones. It was, yes.
    Mr. Austin Scott of Georgia. So it is not really a 
discovery. It is the fact that other countries were already 
using this. And if I remember correctly, we actually used the 
research from Canada on that particular pesticide or whatever 
we want to call it that attacks the Varroa mite to approve it. 
And I would just hope that we would be able to continue to 
expedite those things.
    What is the current estimate of the bee population, the 
cultivated bee populations and the wild bee populations?
    Mr. Jones. I happen to know for managed bees that the 
number, the Department of Agriculture number is about 2.7 
million managed bee colonies in the United States. I don't 
believe any of us know the wild populations. I don't know that 
they are surveyed.
    Mr. Austin Scott of Georgia. Yes. It would be hard to count 
them, wouldn't it? That doesn't mean that certain agencies 
don't try to count other things and make up some numbers from 
time to time. How does it in the managed area compare to recent 
historic levels?
    Mr. Jones. My understanding is that the managed colony 
numbers, they are actually up a little bit over the last 5 
years, from 2.5 million to 2.7 million. But that in the 1940s, 
they were as high as six million managed bee colonies. And as 
recently as the early 1980s, it was around three million. So 
overall, the trend is they are down. They seem to have 
stabilized and there is a small uptick.
    Mr. Austin Scott of Georgia. All right. Thank you. Dr. 
Johansson, do you have anything to add to those?
    Dr. Johansson. No. Those are the numbers that you could see 
from looking at the NASS honey reports, you can pull out of 
there the number of colonies. Right now, as Jim had mentioned, 
the most recent report documents 2.7 million colonies. Last 
year, there was 2.6, so a slight increase. But certainly in 
previous years, it was much higher than that. We would expect 
that as the valuation, as you mentioned, of pollination 
services goes up, over time you would expect producers to 
respond by trying to increase that number.
    Mr. Austin Scott of Georgia. Does the USDA keep any 
estimates of wild bee populations?
    Dr. Johansson. We could certainly get back to you on that. 
I have seen some in some of the preparation I did. But I don't 
have the number on the top of my head. And I would hesitate to 
try to dig through these papers to try to find it for you.
    Mr. Austin Scott of Georgia. I would be interested in the 
estimates and what they have done historically.
    Thank you, Mr. Chairman. And I apologize, I used 40 seconds 
of your time.
    The Chairman. I will get them back at the next subcommittee 
hearing that you are chairing.
    Mr. Austin Scott of Georgia. That is fine.
    The Chairman. I would like to now recognize my colleague 
from Florida, Mr. Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman. Gentlemen, I appreciate 
you being here.
    What I would like to bring out in this hearing is 
clarification and the purity of science and the purpose of 
science and not have agendas driven by one side or the other. 
That your decisions in the EPA and USDA are based factually on 
science. Because if we don't have that in your agency, what we 
have is mob rule or we have the media hysteria that goes on 
that drives things that will affect, say, one of the large box 
retail stores because of media hype in the respect that they 
think that neonics are bad or insecticides are bad. But, yet, 
when you look at all the benefits that we have gotten over the 
years, it outweighs the bad.
    And you guys are obviously there to protect us and the 
environment and things within the environment. But it has to be 
based on pure science. And what I read here is disturbing in 
that the EPA is moving to rule before the studies are done. And 
what I want to ask you is do we have assessed values of neonics 
in the nectar of a flower that is toxic to a bee? What level is 
that, Mr. Jones?
    Mr. Jones. Thanks, Congressman. We have not finished the 
risk assessment process for neonics and their essential risks 
in bees. A part of doing that is understanding exposure. And a 
part of evaluating that exposure is to get good estimates 
around the amounts of neonic in honey, in nectar, I am sorry, 
in pollen and in nectar because that is one of the ways a bee 
can be exposed.
    Mr. Yoho. Well, coming from the State of Florida, we have 
the University of Florida there with IFAS which does a 
fantastic job in research. What they are finding out is--and I 
am sure you are aware of what is going on in Florida with our 
citrus trees, we have about 90 to 95 percent of the citrus 
trees in Florida are infected with the huanglongbing bacteria. 
And it has decimated our population of citrus trees. And 
without the use of neonics, we will have no citrus in Florida. 
And Florida without citrus trees is like Wal without Mart. It 
just doesn't work.
    And the neonics have been proven that if you give them 3 
weeks prior to the blooming stage of the plant, that they are 
very effective at stopping citrus greening. And, yet, the 
levels of the neonics in the nectar measured, is less than 20 
parts per million, which is what is deemed toxic for the bee. 
It is well below that. So a strategic spraying and application 
of a product is what is beneficial for the citrus tree, as it 
is for other crops. And when I look at the honey bee population 
in the world, I have a study right here in front of me, if you 
look from 1960 to 2010, the millions, the amount of beehives, 
they have gone from 50 million beehives to now they are right 
at 80 million beehives worldwide. And when you look at when 
neonics were introduced, there was a decline in that era but it 
was before neonics were introduced into the environment. And 
our populations have gone up.
    And then when we look at the stress that are on the bees, 
when you look at California that has to import a lot of their 
bees, they have to transport them long ways or other parts of 
the country, the stress factor along with the mites and the 
viruses seem to play more of a relationship when you look at 
the correlation of stress on the hives, management of the 
hives, and the contamination when you bring in outside 
population of bees, it is like children and horses, when you 
move them together, they are going to pick up exogenous strains 
of viruses that affect them.
    We need to put more emphasis on that and that research. 
Because if we look at just Canada, they have roughly 16 million 
acres of canola. And they don't have a decline in bee 
population. Of course, they don't have the Varroa mites. But 
they have been using neonics steadily for the last 20 years. 
What are your thoughts on that?
    Mr. Jones. Well, a couple of things. First, I would like to 
recognize that we authorized the use of the neonics in Florida 
citrus because of the exact scenario that you described. So we 
are very familiar with the issues they are having. We are 
committed to using sound science in making the regulatory 
decisions that we do around neonics. Most of the grief that we 
get is because we haven't canceled the neonics, not because we 
are not following a science-based process. I think that you are 
referring to Australia as opposed to Canada. Canada is 
suffering some of the same bee issues that we are. Australia, 
from the accounts that I have gotten, has not, and Australia 
does not have the Varroa mite at least as of yet.
    Mr. Yoho. The reports I have right now is that Canada with 
their canola fields, roughly 16 million acres, their bee 
population is doing well. And their honey production is doing 
fine. It hasn't seen a dip. Unless I am wrong on that.
    Mr. Jones. Actually, I am sorry, eastern Canada has had bee 
population issues that are similar to the United States. And 
western Canada has not.
    Mr. Yoho. All right. And I will reserve my questions for 
the second go-around, Mr. Chairman.
    The Chairman. Thank you, Mr. Yoho. I now would like to 
recognize my colleague from Washington, Mr. Newhouse, for 5 
minutes.
    Mr. Newhouse. Thank you, Mr. Chairman. I appreciate that. 
Welcome, gentlemen. Thank you for being here about this 
important subject. I am a fruit producer. So I understand fully 
the importance of honey bees to our way of life and to our 
ability to produce food, but also a user of some of these 
classes of chemicals. And I might add that they have been very 
successful in allowing us to control very problem pests very 
economically and have gone a long ways to actually reducing the 
amount of sprays that we apply. We can find a balance here at 
some point.
    But I have just a couple of questions. I will ask Mr. Jones 
first, if I might. As I am a producer, I am interested in this 
subject. Would you say that there are any investigations or 
statistics about negative impacts on bee health that are 
correlated to the misuse of pesticides contrary to label 
requirements and recommendations?
    Mr. Jones. There certainly, Congressman, have been a number 
of incidents associated with the misuse of pesticides. One that 
has gotten a lot of the attention from the state just south of 
yours in Oregon. And they are easily predicted, if you misuse 
an insecticide, that you may kill insects that you were not 
intending to kill. And that is something that we have seen 
where, in the case in Oregon, neonicotinoids, but, it frankly, 
could have been any insecticide, were applied to linden trees 
while tens of thousands of bumblebees were in that tree. The 
label said it shouldn't be used that way. But it was used that 
way. And yep, big surprise, all the bumblebees in that tree or 
most of them died. We have a lot of evidence that if you misuse 
an insecticide in a way where insects are present that you 
didn't want to inadvertently kill, you will see deaths, in that 
case, bee deaths.
    Mr. Newhouse. I guess where I would like to probe a little 
further, how much are we working on enforcing those existing 
rules, those existing label restrictions versus coming up with 
new rules? Shouldn't we be doing the former before the latter?
    Mr. Jones. As a former commissioner of an ag department, I 
would expect you would know that pesticide use in the United 
States is enforced by state ag departments with the exception 
of a couple of states where it is done by the Environmental 
Agency which is California and New York. So I would turn to my 
state NASDA colleagues to answer that question.
    Mr. Newhouse. I appreciate that. And I do understand. A 
growing number of municipalities and even several states around 
the country are banning the use of this class of chemicals. I 
understand the EPA's regulatory decisions are based on analysis 
from numerous, hundreds of staff reviewing available data. In 
your estimation, do these states and cities have the expertise 
and staff resources to be making these kind of decisions?
    Mr. Jones. I wouldn't speculate on the capacity of states 
or local governments to make some of the choices that are being 
made. I think that one of the reasons people are frustrated 
with our time schedule is that we have not finished our review, 
which is why we are expediting the review of the neonicotinoids 
so that municipalities, states, and others can have the benefit 
of EPA's risk assessment.
    Mr. Newhouse. So a follow-up to that, similarly, when 
retailers may have questions about a product and how or why it 
may be approved, do you explain that approval process and the 
requirements that you impose on those companies?
    Mr. Jones. When we are asked it is usually by a 
municipality. That is the entity that most often asks can we 
come and explain to them how we do our work. We always provide 
that kind of technical assistance. I am not aware of, it 
doesn't mean it hasn't happened, but I am just not aware of a 
retailer having asked for our views on a pesticide regulatory 
issue.
    Mr. Newhouse. Okay. Thank you very much. I will yield back 
my time, Mr. Chairman.
    The Chairman. You just yielded back the 40 seconds Chairman 
Scott took. So thank you.
    Mr. Newhouse. We are even.
    The Chairman. Yes. I will let him know that. I would like 
to now recognize my colleague from Pennsylvania, Mr. Thompson, 
for 5 minutes.
    Mr. Thompson. Mr. Chairman, thank you. Thank you for this 
hearing, an incredibly, incredibly important topic in the world 
of agriculture and, quite frankly, everyone that likes food. 
Scientific research really is the key to protecting and 
sustaining pollinator health. And there is already so much 
research occurring between the USDA, the EPA, and other land-
grant universities. I am a little concerned, though, to some 
degree that this research is being done in silos and we haven't 
maximized the full synergistic benefits through collaboration, 
that maybe at times there is little to no coordination between 
these various entities.
    Institutions, such as my alma mater, Penn State, land-grant 
university, which I know is doing a considerable amount of 
pollinator research and with Federal resources would be a great 
partner, especially given their existing work with extension 
activities. So my question is do the two agencies that you both 
represent, respectively represent, does USDA or EPA intend to 
move forward with any kind of national pollinator institute to 
help bridge these connections and better coordinate efforts 
and, quite frankly, in a synergistic way get to some good 
solutions sooner rather than later?
    Mr. Jones. Thanks, Congressman. We are coordinating with 
our colleagues at the Department of Agriculture on pollinator-
related issues very closely and with your alma mater, Penn 
State, I am forgetting the name of the entomologist there who 
has been very active in our collective collaboration, as well 
as many other land-grant researchers. I am not aware of any, at 
least on the EPA's part, of standing up a pollinator institute 
of any nature. I will defer to Rob.
    Dr. Johansson. Certainly we can follow up with you on this 
question in terms of our work with the land-grants. I know that 
we have certainly requested additional budget resources for 
some of our research agencies which do collaborate pretty 
strongly with institutions like Penn State. So, for example, 
both NASS, ARS, and NIFA have, we have requested additional 
funds specifically for pollinators. But I am not aware of that 
being targeted towards a specific institute.
    Mr. Thompson. I would be real curious to get both your 
respective professional opinions, and how would you feel about 
an initiative that would stand up such a national pollinator 
institute?
    Mr. Jones. I will defer to Dr. Johansson, as I think that 
the broader issues of pollinators are more in USDA's bailiwick 
as opposed to just the pesticide.
    Dr. Johansson. Well, it is a great question. I would like 
to hypothetically think about that and get back to you on that. 
Certainly, there has been pollinator research stations that we 
have had in the past that have been part of the extension 
service and collaborating at places such as LSU. And I know 
that some of those have had budgetary issues in the past that 
we are trying to boost now. And that would go a long way 
towards answering your question. But I need to get specifics 
from our Office of Budget and Policy Analysis on that.
    Mr. Thompson. That would be great. And I would welcome 
input from both agencies.
    I think we are all very aware of the potential risk with 
any kind of impairment to pollinators. And I would love to talk 
with you and your agencies more about--I recognize that, 
obviously, we are doing some isolated, some targeted 
collaboration. But this really, the potential risk here 
warrants perhaps a little broader collaboration.
    I wanted to just quickly, I know that the chief of the 
National Wildlife Refuge issued a unilateral moratorium on 
January 26 prohibiting agriculture practices on Refuge property 
that employ the use of biotechnology and neonic pesticides. 
There were no independent reviews conducted documenting 
specific health risks to humans or wildlife, nor was any 
discussions held between the Refuge System and the agencies 
responsible for review and regulation of these technologies. My 
question, Mr. Jones, is with the July 17, where the Fish and 
Wildlife Service announced it was banning the use of 
neonicotinoids on U.S.--how did I do, Chairman, with the 
pronunciation of that? Pretty good.
    The Chairman. Terrible.
    Mr. Thompson. Okay. Everything I learned I learned from 
him--was EPA consulted by the Fish and Wildlife Service 
regarding this decision? And what guidance did the EPA offer if 
it did?
    Mr. Jones. We were not consulted on that decision.
    Mr. Thompson. Okay. Thank you, Chairman.
    The Chairman. Thank you, Mr. Thompson. Since everyone here 
has gone through a round of questioning, now the witnesses are 
stuck with my round of questioning. But, first, being the 
Chairman of the Subcommittee, I always enjoy hearing about 
other land-grant universities and the positive research that is 
being done there. But none can compare to the land-grant 
university, the University of Illinois. And I see we have fans 
in the back. Thank you.
    The University of Illinois has been at the center of 
pollinator research. Dr. May Berenbaum was awarded the National 
Science Award for her research in pollinator issues. And I am 
proud that what we see here today is a collaboration on 
research that is very important to this issue happening at many 
of our land-grant universities, which is why I am so proud of 
the Subcommittee and the Members that are on the Subcommittee 
because we have issues that affect the agriculture communities 
as a whole. And we have research being done at our facilities 
within our districts. And we are able here today to talk about 
how that research is being utilized by the Federal agencies 
who, at this point, are partners in releasing a report that, as 
I said in my opening statement, is 5 months behind. I will 
start with that question. Does anybody have an idea at the 
table, Dr. Johansson, as to when this may come out? Maybe next 
week?
    Dr. Johansson. Well, Jim had mentioned that they were 
expecting that to come out in the next couple weeks. I have 
heard spring. And, obviously, spring is, in D.C., is a loosely 
defined term. I think we may already be past spring in D.C. 
Certainly, we are expecting that to come out sooner rather than 
later. And I will let Mr. Jones fill in the blanks on more 
specifics.
    Mr. Jones. We are a couple of weeks away and the report 
will be publicly released.
    The Chairman. Great. I will hold you to it. All right. The 
first question I have is for Dr. Johansson. I am sure you have 
read recent media reports regarding allegations of scientific 
suppression within the USDA. Have you ever felt pressured to 
modify your conclusions or to keep them from the public?
    Dr. Johansson. Speaking personally, no, I have not. I have 
certainly, as a young researcher, felt that the peer-review 
process was maybe sometimes a little slow for my desires, 
wanting to get publications out into journals and what have 
you. But for the most part, speaking from an economics 
perspective, all the peer review that we put in place is 
intended just to make sure that the research that is being done 
is of sufficient quality and rigor for publication in 
scientific and academic journals or for presentations at 
professional meetings.
    And so based on that experience, I have not ever felt that 
any kind of research findings of mine or anybody in my office 
have been adversely impacted by this review process that we 
typically try and put in place just to ensure that the research 
that is getting put out is of high enough quality for use to 
the public.
    The Chairman. And for this Committee, can you briefly 
outline the process that you use for USDA scientists' work and 
the peer-review process that it goes through before 
publication?
    Dr. Johansson. Sure. I think each office in USDA approaches 
this differently depending on the kind of science that is being 
done. And so I certainly don't want to speak for those other 
agencies that have developed their processes and protocols that 
are specific to the type of research that they are undertaking.
    For our process, I can speak to a couple aspects of that. 
Our office provides advice to the Secretary and that is 
generally, typically just for internal consumption. And so we 
often have to put that together relatively quickly and get that 
up to his office. And he relies on our professional experience 
to provide the best available information available to him at 
that time. So that doesn't necessarily have any sort of 
rigorous protocol that we have to go through to get that up to 
him.
    But, on the other hand, as part of my office, we have the 
World Agriculture Outlook Board that coordinates all of our 
estimates for the World Agricultural Supply and Demand that we 
put out each month. That process is very tightly determined by 
protocols that we put in place specifically to keep those 
analysts protected from any kind of what may even be perceived 
as outside interference from any political or questioning or 
alterations of their findings.
    And so I would just point out that at least the protocols 
that are in our office are intended, essentially, to make sure 
that our analysts are able to put out to the public the best, 
most accurate information available.
    The Chairman. So the reports that there has been 
suppression due to political motives, they are wrong?
    Dr. Johansson. I am not really familiar with those reports. 
I haven't been involved with that issue. I know we do have a, 
we have developed a scientific integrity policy at the 
Department that is intended to provide guidance and discuss 
these issues. We can certainly get that information to you. But 
I haven't been involved with any reports of any kind of 
suppression of USDA science results.
    The Chairman. Okay. So do you equate the need to follow set 
protocols with this allegation of political suppression that 
you say doesn't exist?
    Dr. Johansson. It certainly doesn't exist in my office or 
with the work that we have been doing. I certainly can't 
comment, like I said, on other agencies.
    The Chairman. All right. Well thank you very much. I am 
going to yield 5 minutes to my colleague from Florida, Mr. 
Yoho.
    Mr. Yoho. Thank you again, Mr. Chairman. I would like you 
to continue on the working together as the EPA and USDA so that 
we do come out with sound science. Mr. Jones, you were talking 
in your testimony, there were three areas that you tried to 
achieve these goals.
    The EPA has focused it's pollinator efforts in three 
primary areas advancing the science and understanding of the 
potential impacts of pesticides on pollinators, taking 
appropriate risk management actions based on that available 
science, and collaborating with domestic and international 
partners to advance pollinator protection. And we all agree how 
important bees are in the pollination process in the production 
of our fruits and vegetables.
    To have that sound science working with the USDA, I have 
also here the National Wildlife Refuge System bans neonics and 
biotechs without justifying or communicating with the USDA or 
the EPA, and on October 2014, EPA releases a study on neonics 
talking about the treatments--I am sure you are aware of the 
soybean seeds, that there was little or no overall benefits to 
production, and the USDA comes out and disagrees with that 
assessment and calls that risk assessment incomplete.
    How do we get you guys on the same page working for a 
common goal instead of fighting against each other, not 
communicating with each other?
    Dr. Johansson, what is your thoughts on that? What would it 
take to get it where you are working together on that?
    Dr. Johansson. Well, I certainly would agree that Jim and I 
are certainly open to working together collaboratively, 
certainly on economic analysis that his office is undertaking 
to discuss the benefits or the economics behind a lot of these 
treatments, and I am sure we will have an opportunity to follow 
up with his office on those, moving forward. And, just to point 
out, we do a lot of collaborating on a lot of issues. And 
sometimes we just wanted to--in this case wanted to make sure 
that we did provide comments on this, and we took the 
opportunity to put those in the public record. I wouldn't 
necessarily call it squabbling or anything like that. It was 
just that we wanted to make sure that our comments were heard.
    Mr. Yoho. Mr. Jones, what is your thoughts on working with 
the USDA? I mean, how can we help facilitate you guys working 
closer together so that when we do come out with a policy it 
has the stamp and approval of the USDA, the EPA, the United 
States Government, and it is factual, not based on an agenda, 
and it is not being politically motivated or outside groups 
motivated. What can we do to get beyond that and just on pure 
science?
    Mr. Jones. We are committed to basing our decisions on 
science and following the rule of law, and we collaborate 
extensively with the Department of Agriculture. As a matter of 
fact, in the mid 1990s, when there was concern that we might be 
running amuck in pesticide regulation, the Department set up an 
Office of Pest Management Policy, which is our point of contact 
on any issue, pesticide, regulatory, or science. And that is 
our point of entry into the Department, and we coordinate and 
collaborate on virtually every move we make that is of 
significant note.
    But we can always do better, and we are committed to doing 
better and making sure that we are as coordinated as we can be. 
If we were to issue certain regulations which the benefits 
assessment was not, we actually have a statutory responsibility 
to consult with the Secretary, and we do that. We have done 
that on the worker protection standard, the current 
certification and training standard, but that was not a 
regulation. But we still went through the Office of Pest 
Management Policy, and would be committed to doing that, going 
forward.
    Mr. Yoho. All right. I would encourage you guys to get the 
results of that report out at soon as we can so we can bring 
some stability to the market so that we don't have the big box 
stores not using a neonic because they say the public 
perception is these are bad.
    And it brings me back to the trade deal coming up that we 
are looking at with the European Union, and what the European 
Union did banning the use of the neonics, or a 2 year 
moratorium on it, and now it has spilled over to Canada, and it 
was, let's see, after the European Commission voted to ban 
neonics, anti-GMO, green and farm groups turned their focus on 
Canada, pressuring Ottawa to follow suit. The responsible 
agency, Health Canada's Pest Management Regulatory, aware that 
the evidence fingering neonics was spotty vacillated issuing an 
ambiguous assessment of the reported bees deaths in Ottawa, and 
we don't want that driving our policies. Because now if we are 
using those products here, we are going to be banned from 
trading with Europe on that, and it is not based on science. It 
is based on a political agenda. And if it is truth behind that, 
I don't have a problem. But if it is not based on science, and 
that is why we rely on you guys, and I know you guys are going 
to do a great job because you have the USDA working right hand 
in hand with you, and it will make American farmers stronger 
with our bees. Thank you.
    The Chairman. The gentleman's time has expired. Thank you.
    Actually, let me jump in real quick and follow up a little 
bit on the discussion that was just had.
    Part of the reason why both of you are sitting here is 
because we have a concern that there isn't the communication 
between the two agencies within the same Administration co-
chairing the Pollinator Task Force, and the evidence is clear 
in the letter that we have submitted for the record.
    Dr. Johansson, were you surprised at the EPA's action here? 
And can you actually elaborate a little bit more on your letter 
and the USDA's disagreement with EPA and how to better 
coordinate as co-chairs of this task force?
    Dr. Johansson. Certainly, on your latter question that with 
the task force there is great communication and great 
collaboration between the two agencies and moving forward on 
that. I am not really involved with the task force. We do, as I 
mentioned earlier, review certain pieces of research or 
analysis that may come out of that task force at some later 
date for its economic content.
    In the case of the study that EPA conducted on the benefits 
of seed treatments for soybean producers, I wouldn't classify 
it as a huge disagreement. EPA acknowledged that there were 
some open questions that they needed to get more data on. They 
wanted to get public comment on that. We agreed with that and 
emphasized places that we thought that the public could provide 
good data, particularly with respect to acknowledging the sort 
of heterogeneity that you get in ag production across the 
United States. Different regions have different growing 
practices, different challenges, and certainly the economics of 
the situation may be different in any given year.
    Certainly we would also point out, which didn't come into 
play in this particular analysis, there are benefits to 
different types of producers, different crops, as has been 
pointed out by Congressman Yoho and Congressman Newhouse. Those 
weren't addressed in this analysis, and certainly moving 
forward, we would expect that looking at the benefits of seed 
treatments will be--or the use of this type of chemical, 
pesticide, would be different by region, by crop, by time of 
year, and that is essentially the point we were trying to make 
in those comments.
    The Chairman. Well, thank you. I appreciate that. And keep 
in mind, now the Ranking Member DelBene talked about why 
couldn't we have more stakeholders in the pollinator issue and 
the colony collapse disorder issue sitting at the table with 
you. Well, we don't have a task force report. It is 5 months 
late. Otherwise, we would have had those stakeholders sitting 
at the table, but what we see as an oversight institution is, 
is we see a disagreement between agencies that are supposed to 
be working together. This is what frustrates us, and this is 
the reason why both of you are here. Because, hopefully, your 
presence, you could take our messages back to your superiors at 
your respective agencies and let them know that we want to see 
that communication. We want to work with you. We want to 
address these issues based upon clear science. And we have so 
many examples that have come up today of institutions that are 
willing and doing the work in pollinator research to help you 
with. But let's make sure that we have that communication 
within our own agencies.
    And, again, I would like to take this opportunity to ask 
you, Mr. Jones, to take a message back to Administrator 
McCarthy that I talked to her about, let's get a member of the 
ag community on your EPA Science Advisory Board. And let me be 
clear on the Congressional intent of that, since I wrote the 
provision. I don't want somebody that just has a scientific ag 
research--a scientific background. Let's get somebody who is 
actually out in the fields on that Science Advisory Board so 
that we can put a seat at the table that has real agricultural 
experience. I am not saying what type. I mean, obviously 
central Illinois is home to corn and soybeans. I call them the 
special crops, not the specialty crops, but we have so many 
opportunities to work together, and the reason you are here 
today is I hope you take that message back.
    So with that I am going to recognize my colleague from 
Washington for 5 more minutes.
    Mr. Newhouse. Well, thank you, Mr. Chairman. And coming 
from a state that raises some of those specialty crops, the 
State of Washington, if I could in a related line of 
questioning, Mr. Jones, let me relate some frustrations from 
some of the stakeholders in my district as it relates to 
registering pesticides with the EPA. I would like your response 
to some of their concerns.
    They reported to me that despite submitting ample 
independent evidence concerning the impacts of their products, 
that sometimes the agency will pick fewer independent stand-
alone studies. Sometimes that lack raw data to formulate their 
decisions, and then make registration tolerance decisions based 
on that instead. And just so you know, I have heard this more 
than one time.
    Could you respond to these concerns and describe to us what 
the registration process looks like and is it uniform.
    Mr. Jones. Thank you, Congressman.
    So the registration process involves manufacturers 
generating a standardized set of data. It is standardized but 
the amount of data we will ask for to register a pesticide on a 
food use is a higher amount of data then, for example, to 
register a nonfood use like a rodenticide product. But within 
that category, it is standard, the data that we want. They are 
required to generate that data.
    For registration of a chemical, most of the review we do 
involves the data that is generated. When we are looking at 
existing chemicals, it often involves not only the information 
generated by the manufacturer but information that may have 
been generated by all sorts of entities. Information from the 
literature, peer-reviewed information from sources other than 
the manufacturer. For new chemicals, though, likely the only 
data you are going to have is what the manufacturer generated.
    So the process that we use in doing risk assessment 
involves looking at all available information. As I said, most 
of that is going to be manufacturer generated, but not 
exclusively, and then making judgments about how to apply the 
standards we have for robust science to that data to perform 
risk assessments.
    Mr. Newhouse. Okay. All right. I appreciate that response, 
and just wanted to make sure you were aware of some of those 
concerns in the process. Certainly as a specialty crop 
producer, sometimes we feel like we are overshadowed by the row 
crops, and that focus of attention certainly is important to 
us, and would appreciate expediting as much as possible the 
process.
    Mr. Jones. One of the very good collaborations we have is 
with the Department of Agriculture and their IR-4 program which 
is designed to basically provide the residue data if necessary 
to support minor use registrations which we give a very high 
priority to.
    Mr. Newhouse. Good. Good. Thank you. And thank you, Mr. 
Chairman.
    The Chairman. The gentleman yields back the balance of his 
time. And thank you for recognizing specialty crops once again.
    I want to thank both of you again. I have just got a couple 
more questions that, because I am here the entire time, I 
usually wait rather than make my colleagues have to wait around 
for us to get through a line of questioning, and then we can 
actually get a few ends tied up and we will get you out of 
here.
    Mr. Jones and Dr. Johansson, there is actually legislation 
that has been introduced that would suspend the registration of 
neonics and establish a new standard for pesticide 
registration.
    Mr. Jones, can you tell us what impact you think this would 
have on farmers' yields and, more importantly, global food 
security?
    Mr. Jones. We have not evaluated what would happen in the 
event of a removal of neonicotinoids as a class of pesticides. 
So I really can't speak with any degree of authority on that 
question.
    The Chairman. And, Dr. Johansson, can you?
    Dr. Johansson. Well, certainly we would see producers 
switch to other classes of pesticides in that case, and so we 
would need to evaluate relative effectiveness and cost of those 
other types of treatments. But certainly we would expect that 
producers would find an alternative. It is just a question of 
how costly that would be. We would need to evaluate that, but I 
wouldn't suspect that we would see--other than the case of 
potentially places where there aren't alternatives, or aren't 
as effective alternatives, a huge decrease in production. Just 
probably an increase in cost.
    The Chairman. Okay. And, Dr. Johansson, your testimony 
discusses the need for public-private partnerships and 
increased citizen engagement to promote pollinator health. And 
I have promoted public-private partnerships in other issues, 
including water infrastructure on another committee that I 
serve on, and I am interested in what the task force is 
actually developing here. Can you provide a preview of what you 
are working on with public-private partnerships, or keep this 
Committee updated on the particular issue? Even though I would 
rather that last statement not be an out for you not to have to 
answer.
    Dr. Johansson. Yes. I have to follow up with you on that.
    The Chairman. You took the out.
    Dr. Johansson. Yes. We will make sure to get you that 
information.
    The Chairman. In a couple weeks?
    Dr. Johansson. In a couple weeks definitely.
    The Chairman. How about a week?
    Dr. Johansson. Well, I will see what I can shake loose when 
I get back to 1400 Independence.
    The Chairman. Thank you. Thank you.
    Well, I am going to go ahead and go into the closing 
statement, and before we adjourn, do you have any other 
questions, Mr. Newhouse?
    Well, again, thank you to both of you for being here today 
at this hearing. I was able to get a lot of questions asked on 
very important issues. Again, we have a concern at this 
Subcommittee over the lack of communication between your 
agencies and between other agencies within the same 
Administration.
    Now, Dr. Johansson, you were being very kind in many of 
your comments in regards to decisions made, specifically on the 
issue relating to the EPA's decision on soybeans, but you do 
say specifically in your letter that the USDA disagrees with 
the EPA's decision.
    I think that disagreement could have been avoided with a 
little bit of communication. And we are going to continue to 
have hearings like this to talk about a lack of communication 
if we don't feel that this task force is coming together and 
continuing to work.
    So take this message back and let your superiors know we 
really appreciate you spending the time here to answer our 
questions. You get to be on the front lines of getting our 
frustration sometimes, and both of you, I truly do appreciate 
the time that you spent in front of this Subcommittee.
    And under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any questions posed by a Member.
    This Subcommittee on Biotechnology, Horticulture, and 
Research is now adjourned.
    [Whereupon, at 3:03 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Letter by Hon. Rodney Davis, a Representative in Congress 
                             from Illinois
April 6, 2015

  Richard Keigwin,
  Director, Pesticide Re-evaluation Division,
  Environmental Protection Agency,
  Washington, D.C.

Re: USDA Public Comments on the EPA's Benefits of Neonicotinoid Seed 
            Treatments to Soybean Production document published in the 
            October 22, 2014 Federal Register; EPA docket 
            identification (ID) number EPA-HQ-OPP-2014-0737.

    Dear Mr. Keigwin:

    America's farmers face numerous challenges as they work to produce 
the food, feed, and fiber for a strong and healthy America. On October 
22, 2014, EPA added an additional and unnecessary burden by publishing 
a portion of an incomplete risk assessment titled ``Benefits of 
Neonicotinoid Seed Treatments to Soybean Production'' which again puts 
growers in the position of defending their pest management decisions. 
USDA staff had specifically requested EPA to complete the full risk 
assessment that would more robustly describe the benefits of 
neonicotinoid seed treatment for all crops. Instead, EPA released the 
report regarding soybean seed treatment without additional 
consideration of other crops or to USDA cautions about releasing a 
premature assessment of the costs and benefits of such seed treatments. 
EPA's release of the incomplete report has resulted in a plethora of 
articles which cast doubt on the value of seed treatment and 
neonicotinoids for agricultural production and the choices made by 
farmers. EPA's report indicates that most neonicotinoid seed treatments 
were prophylactic in nature and that there are available alternative 
foliar insecticide treatments that would be as effective at similar 
cost to neonicotinoid seed treatments. EPA concludes that there ``. . . 
are no clear or consistent economic benefits of neonicotinoid seed 
treatments in soybeans.''
    As a whole, USDA disagrees with that assessment. We believe that 
pest management strategies are made in consideration of pest pressures, 
climate, landscape, and numerous other factors.
    Growers should have the ability to use the best tools available to 
manage pests that include choices in seed treatment and pest management 
tactics. Each knows best what works for his or her individual 
situation.
    Again, thank you for the opportunity to review. Our comments are 
below.
            Sincerely,
           
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Robert Johansson, Ph.D.,
Acting Chief Economist,
U.S. Department of Agriculture.
                               attachment
USDA Public Comments on the EPA Document
``Benefits of Neonicotinoid Seed Treatments to Soybean Production''
Background
    It is clear that the soybean crop is of significant size and 
importance to overall U.S. production. In 2013, U.S. farmers harvested 
3.36 billion bushels of soybeans on 76.25 million acres, which was 
valued at $41.84 billion. Average soybean yield was 44 bushels per 
acre. In 2013, soybean price at the farm averaged $14.30 per bushel.
    It is also clear that expenditures on neonicotinoid seed treatment 
for soybeans are substantial and not insignificant. In 2013 
neonicotinoid seed treatment sales exceeded $1 billion and more than 
$400 million for soybean seed treatments, or roughly nine percent of 
seed costs. There are at least 36 different EPA registered 
neonicotinoid-based products for seed treatments in soybean. Many of 
those products are also registered in 40 or more states in addition to 
the Federal registration.
    The agricultural sector, including the soybean sector, is typically 
viewed as competitive. As such it is unlikely that most farmers would 
be purchasing seed treatments if there was no value to them. For 
example, extension agents at the University of Mississippi point out 
that adoption of neonicotinoid seed treatments for soybeans in MS has 
risen from two percent in 2007 to 90 percent today. That pace is more 
rapid than adoption of herbicide resistant soybeans \1\ and has been 
driven by the value MS soybean producers place on the protections 
afforded by neonicotinoid seed treatments.\2\
---------------------------------------------------------------------------
    \1\ See discussion at http://www.ers.usda.gov/data-products/
adoption-of-genetically-engineered-crops-in-the-us/recent-trends-in-ge-
adoption.aspx.
    \2\ See http://www.mississippi-crops.com/2014/10/31/do-
neonicotinoid-seed-treatments-have-value-regionally-in-soybeans/.
---------------------------------------------------------------------------
EPA Findings
    EPA argues that it would be equally cost-effective for producers to 
substitute protections afforded by neonicotinoid seed treatments with 
other foliar applications of pesticides. The report makes the broad 
generalization that ``. . . At most, the benefits to soybean growers 
from using neonicotinoid treated seeds are estimated to be 1.7% of net 
operating revenue in comparison to soybean growers using foliar 
insecticide . . .''
    To come to that conclusion, EPA has had to make several broad 
generalizations and to rely on scarce and limited data that are not 
public. For example, EPA assumes that foliar spraying of pesticides is 
done by all producers who are purchasing seed treatments, that such 
spraying does not incur additional costs in management or equipment 
purchases, and that such spraying can address the same pests over the 
same time window as seed treatments. EPA did not consider any potential 
environmental consequences of foliar spraying such as compaction issues 
with farm fields if additional treatments are required, increased risk 
of exceeding food tolerance residue levels when compared to seed 
treatments, effects of increased foliar sprays to farm workers, 
pollinators, other beneficial arthropods or integrated pest management 
systems, nor regulatory barriers to spraying created by other 
environmental regulations. The EPA analysis assumes that foliar 
spraying is environmentally preferable to using seed treatments.
    EPA notes some additional limitations in their report, which they 
indicate may affect their conclusions:

  <bullet> EPA acknowledges that there may be risk management benefits 
        to using neonicotinoid seed treatments, but that they lack 
        information to quantify those benefits.

  <bullet> EPA acknowledges that neonicotinoid seed treatments may be 
        more or less valuable to soybean producers in conjunction with 
        other crop management technologies, such as IPM or crop residue 
        management. EPA has not included any of those cross effects in 
        their analysis.

  <bullet> EPA acknowledges that the use of neonicotinoid seed 
        treatment may help soybean producers manage pesticide 
        resistance. The efficacy of alternatives to neonicotinoid seed 
        treatments are not adjusted for such resistance issues.

  <bullet> EPA also acknowledges that other costs of soybean production 
        not accounted for in this analysis may influence the extent 
        that uncertainty in EPA's analysis would affect the 
        conclusions.
Conclusion
    USDA disagrees with the general assertion by EPA that there are 
``no clear'' economic benefits to seed treatments in soybeans. In 2013 
neonicotinoid seed treatment sales exceeded $1 billion and more than 
$400 million for soybean seed treatments. In general, USDA would 
suggest that farmers are efficient and would not use management 
practices that did not generate expected benefits that were at least as 
great as the cost of that management practice. Farmers will generally 
employ such practices to the point when the marginal benefit of that 
practice is equal to the marginal cost of that practice. In this case, 
employing a menu of pesticide practices that includes seed treatments 
is balanced against the costs of using those practices.
    Because, those decisions are based on expected crop prices and 
expectation that in some years pest management will be more or less 
necessary based on environmental conditions it may be that in any given 
year costs of pest management exceed the benefit provided in that year. 
However in other years such investments are repaid and would cover 
previous year's use of those practices. Similarly, pest management in 
one region may protect crops from certain pests at a different rate 
than in other regions. Given the pace of adoption of neonicotinoid seed 
treatments particularly in some regions of the country, it is clear 
that there are economic benefits to using those seed treatments.
    Unfortunately, EPA's conclusions are not supported by complete data 
nor analysis. EPA's analysis does not include potential labor and 
management savings afforded by seed treatments. Moreover, it does not 
consider cases when timely foliar applications are not possible or as 
effective due to general field and weather conditions. Applications of 
pesticides are required to mitigate the adverse effect of those pests 
on a newly emergent crop. EPA's calculation does not include 
consideration of control for soil pests that would not be affected by 
foliar applications. EPA's calculation does not include any additional 
regulatory expenditure by landowners, such as costs to revise pesticide 
permit applications, or costs to submit new applications for foliar 
spraying. EPA does not consider the benefits of seed treatments when 
soybeans are grown in rotation with other crops, such as corn, which 
may be higher than consideration of benefits on a year by year and crop 
by crop basis. Under a reasonable sensitivity analysis it can be shown 
that EPA's calculations could be understated by more than a factor of 
ten for soybean producers in certain regions.
    USDA is disappointed that EPA published this report in such a 
preliminary format without offering USDA an opportunity to help EPA 
reframe their analysis and correct the misrepresentation of economic 
costs and benefits that underlie this report. Farming is different from 
running a dry cleaning enterprise or an electrical utility. It is the 
nature of farming that production conditions are uncertain and 
variable. Producers have to employ a variety of processes and 
technologies that are best suited to a particular farm, farm family, 
and environmental condition. As such it is inappropriate to draw 
conclusions about the entirety of soybean production across regions of 
the United States under different environmental conditions by simply 
looking at national averages over several years.
    Seed treatments are a preventative measure that guard against yield 
losses due to certain pests in certain years in certain places. Because 
farmers have shown rapid adoption of that management technology in some 
states it is clear that there is value to those treatments. Seed 
treatments are just one of the tools a producer has to manage pests on 
the farm. USDA agrees that in some situations different pesticide 
methods may be equally effective as seed treatments in a given year. 
And it is likely that in some soybean growing regions, there are more 
cost-effective pest management treatments. However, in other situations 
or regions, environmental conditions would likely favor the efficacy of 
seed treatments over those afforded by foliar spraying.
    For many regions, it is generally agreed in the soybean IPM 
research community that use of neonicotinoid insecticides may not be 
useful in enhancing yield in soybean, especially for aphid control 
since it does not persist to the period when aphids are most damaging 
to yield. However, yield enhancement is not the only consideration for 
using neonicotinoids in crop production, including in soybeans. Those 
insecticides may have benefits in soybeans to help produce seed without 
mottling by reducing virus transmission by beetles, especially around 
edges of fields. Seed producers get ``docked'' for mottled seed.
    Environmental or ecological consequences of neonicotinoids may not 
be as great as other traditional insecticidal insect control, 
especially with regard to unintended mortality of beneficial insects 
since, in soybeans, it does not persist to the period when most 
beneficial insects are most active.
    Based on the above points, soybean is not a good model for judging 
the value of neonicotinoids to yield enhancements. Pesticides are 
considered in production systems as a whole and all crops in that 
system are generally included. The soybean belt has rotations with corn 
and soybeans included and neonicotinoids are used in corn as well. 
Soybeans are now a big part of the production systems in the cotton 
belt where neonicotinoids have been found to be effective in enhancing 
cotton yields. Integrated systems rely on every tool available and 
assessments of any component in the system should include all other 
possible components.
    Because of the many limitations and uncertainties acknowledged by 
EPA, USDA suggests that EPA revise their study to evaluate the full 
costs and benefits of neonicotinoid seed treatments in all crops and 
regions. Furthermore, because EPA has relied on data currently 
unavailable to the public, USDA requests that EPA include more survey 
results from the recently released reports that indicate that farmers 
are using neonicotinoid seed treatments for a variety of reasons.\3\
---------------------------------------------------------------------------
    \3\ See recent studies on this topic published by AgInformatics 
(http://growingmatters.org/studies/).
---------------------------------------------------------------------------
Specific Comments
1. USDA suggests EPA reframe their analysis to consider the full costs 
        or benefits of neonicotinoid seed treatments as it would 
        typically do under its FIFRA requirements.
    When considering pesticide uses under the Federal Insecticide, 
Fungicide, and Rodenticide Act (FIFRA), EPA provides a benefit 
assessment in conjunction with a risk assessment and other materials 
that inform the determination of whether the use of a pesticide results 
in unreasonable adverse effects on the environment. Consideration of 
benefits is required during EPA's decision-making process. During 
registration, registration review or when considering cancellation of a 
pesticide, USDA and the public receive the entire set of documents 
relevant to the Administrator's determination of unreasonable adverse 
effects on the environment.
    In cases where the Administrator proposes cancellation of a product 
or proposes a regulatory action, the Secretary is provided the relevant 
documents prior to the interagency review with the option to provide 
formal comments to be included in the Federal Register notice when the 
regulatory action is published in the Federal Register. All of the 
neonicotinoid pesticides are currently undergoing registration review 
with data generation projected to be completed by 2015 for 
imidacloprid; 2016 for thiomethoxam, clothianidin, and dinotefuran; and 
2017 for acetamiprid and thiocloprid. Risk management decisions are to 
follow in 2016 to 2019. Normally the benefits assessment for specific 
uses would not be released to the public prior to the interim risk 
management decision. For example, the interim decision and benefits 
assessment for flutolanil was released in September while the pesticide 
was in the last stages of registration review and a full 6 months 
following the release of its human health risk assessment in March. In 
the case of neonicotinoid seed treatments, USDA and the public will see 
only the soybean neonicotinoid seed treatment benefits assessment 
without a risk assessment or notice of the decision under 
consideration. Soybean seed treatment is singled out among all of the 
neonicotinoid seed treatments, without explanation, creating 
uncertainty among growers and seed providers over the future of this 
tool.
2. The potential change in use for neonicotinoid seed treatments 
        assumed in EPA's analysis is economically significant.
    Because the value of these treatments are in excess of $1 billion 
in sales for the U.S., any analysis of the costs and benefits of using 
neonicotinoid seed treatments would be considered economically 
significant and would undergo full notice and comment by OMB and USDA 
before public comments were solicited.
    Even when limiting the scope to soybean seed treatments, the sales 
of neonicotinoid treatments exceeded $400 million in 2013, likely 
making any economic analysis of restricting the use of those treatments 
economically significant. If EPA recommended cancellation of soybean 
seed treatments, the Secretary would be asked to comment on EPA's 
analysis of the impacts on the agricultural economy. As such, USDA 
suggests that EPA consider the costs and benefits of neonicotinoid seed 
treatments per the guidance provided by OMB Circular A-4 and the OMB 
Information Quality Guidelines. Such analysis would explore the many 
limitations noted in this study and would also examine the efficient 
use of pest management systems across crop species and regions while 
considering potential resistance issues.
3. The report does not consider the environmental benefits of 
        neonicotinoid seed treatments for soybeans.
    In general, EPA analysis would consider both the costs and benefits 
of a particular use of a pesticide in question. Despite the title of 
this report, EPA does not consider any environmental benefits in this 
analysis. Using seed treatments minimizes the exposure of non-target 
insect populations to active ingredients included in foliar sprays. 
Such potential benefits to those insect populations have not been 
included in this analysis.
    Several reports recently have noted the positive environmental 
benefits associated with seed treatments. For example, the 
AgInformatics Value Report (2014) indicates that soybean producers that 
choose to use neonicotinoid seed treatments say that family and worker 
safety (70%), protecting water quality (57.5%), and protecting 
beneficial insects (43.8%) are `very important' considerations when 
selecting pest management strategies. And extension agents at the 
University of Mississippi note, ``. . . Neonicotinoids are a class of 
chemistry that are highly efficacious against insect pests and very 
safe to mammals. This has led to increased use in many crops grown in 
the Mid-South region . . .''
4. Preventative seed treatments are likely to be more or less effective 
        under certain conditions and regions.
    Most management techniques for growing crops work better in some 
years than others. For example, during a period of low precipitation it 
is more useful to irrigate your crop. In other periods, the investment 
in irrigation technology may not show an economic return. That is also 
the case with seed treatments. In some years in some regions, 
neonicotinoid seed treatment may prevent significant yield losses; 
whereas in others it may not be as beneficial. In some of those 
instances, the producers may not be able to effectively use foliar 
sprays as an alternative. That could be due to a number of reasons, 
such as lack of appropriate conditions for spraying foliar sprays. In 
addition, common pests are found in both corn-bean rotations. 
Controlling pests during the soybean rotation may provide benefits for 
the corn rotation. It does not appear that EPA has considered those 
potential benefits.
    Some foliar pests cannot be effectively controlled with foliar 
sprays for a period at the beginning of the plant cycle; e.g., 
germination. Extension agents at the University of Tennessee indicate 
that seed treatments are most effective in the 3-4 weeks at the 
beginning of crop growth, which is the critical period for protecting 
seedlings when they are most vulnerable to pests. Early in the season, 
it is often the case that fields are wet and therefore difficult for 
producers to get out into the fields for foliar pesticide applications. 
In addition, some pests may be below ground and therefore not 
controlled by foliar sprays.
    EPA does not consider protection from the wide range of pests that 
are controlled by neonicotinoid seed treatments, but simply focuses on 
three. Other pests often do not cause significant damage to seedlings, 
but some may: weevils, trochanter mealybug, grape colaspis, wireworms, 
three-cornered alfalfa hopper, bean leaf beetle, thrips, white-fringed 
beetles, etc. Indeed, EPA notes that ``. . . In instances where seed 
treatments may provide some insurance benefit against unpredictable 
outbreaks of sporadic pests, such as seed maggots or three cornered 
alfalfa hoppers, BEAD cannot quantify benefits with currently available 
information. However, this insurance benefit may exist for some 
growers, particularly those in the Southern U.S. Given currently 
available information, BEAD projects that any such benefits are not 
likely to be large or widespread, given the negligible historical 
pesticide usage targeting these pests in soybeans . . . .''
5. Seed treatments minimize the management and labor investment 
        required for scouting and foliar spraying.
    It does not appear that EPA has considered the time and labor 
savings afforded producers by use of seed treatments. EPA assumes that 
all producers are already applying foliar sprays and so the addition of 
active ingredients to address the same pest spectrum does not come at 
any cost other than the actual ingredients. However, not all soybean 
producers apply foliar sprays and those that do may not be applying 
them at the same time as covered by the seed treatment window of pest 
control.\4\
---------------------------------------------------------------------------
    \4\ See discussion at https://www.pioneer.com/home/site/us/
template.CONTENT/agronomy/crop-management/high-yield-management/
soybean-aphids/guid.069BE58A-CCEA-CE6C-A77D-3E5B02A320EB and http://
www.farmdoc.illinois.edu/manage/newsletters/fefo04_04/fefo04_04.pdf.
---------------------------------------------------------------------------
6. EPA's use of limited data to support their analysis is unfortunate, 
        when they were aware that several other studies on this topic 
        would be released at roughly the same time. Those additional 
        data could have been used to augment the limited data cited by 
        EPA in their report.
    EPA's use of unpublished and sparse data to make overly broad 
conclusions about the efficacy and economic value of neonicotinoid seed 
treatments does not comport with OMB's Information Quality Guidelines 
or EPA's Guidelines for Ensuring and Maximizing the Quality, 
Objectivity, Utility, and Integrity of Information Disseminated by the 
Environmental Protection Agency. As an example, EPA states ``when asked 
when growers should use neonicotinoid seed treatments, 11 of 20 
respondents indicated that they should be used under specific 
conditions--for example, when planting soybean in an area experiencing 
high infestation rates, or in double cropping scenarios or when 
planting early season soybeans.'' Compare that to the AgInformatics 
Value Report that shows soybean farmers select insecticidal treatments 
(seed versus foliar) based on cost, consistency of yield and duration 
of protective effects. The AgInformatics Value Report included 622 
soybean farmers from 14 states.
7. EPA's Table 4 should show sensitivity analysis as is standard 
        practice for cost-benefit analysis.
    EPA derives their conclusion that neonicotinoid seed treatments do 
not provide any significant benefits from their calculations in Table 
4. EPA describes that table as providing conservative results. USDA 
would disagree. EPA has not considered many things that would affect 
those calculations. Indeed, it seems that EPA agrees and acknowledges 
many of those limitations,

  <bullet> EPA acknowledges that there may be risk management benefits 
        to using neonicotinoid seed treatments, but that they lack 
        information to quantify those benefits.

  <bullet> EPA acknowledges that neonicotinoid seed treatments may be 
        more or less valuable to soybean producers in conjunction with 
        other crop management technologies, such as IPM or crop residue 
        management. EPA has not included any of those cross effects in 
        their analysis.

  <bullet> EPA acknowledges that the use of neonicotinoid seed 
        treatment may help soybean producers manage pesticide 
        resistance. The efficacy of alternatives to neonicotinoid seed 
        treatments are not adjusted for such resistance issues.

  <bullet> EPA also acknowledges that other costs of soybean production 
        are not accounted for in this analysis may influence the extent 
        that uncertainty in EPA's analysis would affect the 
        conclusions. For example, foliar applications of pesticides 
        often require landowners to apply for pesticide application 
        permits and to undertake more burdensome pesticide applications 
        precautions. Such additional regulatory costs are costly to 
        producers and have not been included in this analysis.

    Those limitations further calls into question the overly broad 
conclusions EPA has published. By considering some reasonable 
alternatives to EPA's limited comparison, USDA notes that seed 
treatments could be very beneficial to producers under certain 
conditions that are unknown to a producer at planting time (see table 
below).

----------------------------------------------------------------------------------------------------------------
                                            EPA  Assumptions                Sensitivity Analysis
       Revenue and Cost           Units   ----------------------------------------------------------------------
                                            Seed  Treatment      Alt. 1       Alt. 2       Alt. 3       Alt. 4
----------------------------------------------------------------------------------------------------------------
Yield                             (bu/ac)                 45           45           45           45           38
Other pests                       (bu/ac)                                                        ^1           ^1
Price                              ($/bu)             $12.03       $12.03       $12.03       $12.03        $9.59
Gross revenue                      ($/ac)               $536         $536         $536         $529         $355
Insecticide costs                  ($/ac)
Seed treatment                     ($/ac)                 $8
Foliar spray                       ($/ac)                             $14          $14          $14          $14
Labor & Mgmt                       ($/ac)                              $0           $7           $7           $7
Other variable costs               ($/ac)               $173         $173         $173         $173         $173
Total variable costs               ($/ac)               $180         $186         $194         $194         $194
Net operating revenue              ($/ac)               $356         $350         $343         $336         $161
----------------------------------------------------------------------------------------------------------------
Percent difference                    (%)                           1.69%        3.79%        4.05%       41.76%
----------------------------------------------------------------------------------------------------------------

  <bullet> Alternative 1: EPA assumptions: yield protection of foliar 
        sprays is equal to seed treatment; no additional costs of 
        pesticide treatments for labor and management or scouting. 
        Assumes flubendiamide is the active ingredient in foliar spray. 
        Requires 2 gallons of water per acre for aerial application and 
        10 gallons per acre for ground application. A recent California 
        study of various emusifiable concentrations estimated the per 
        acre cost of aerially applying flubendiamide at 2.0 fl. oz at 
        $22.10 per acre. Flubendiamide is used in soybeans at 2-3 fl. 
        oz per acre.

  <bullet> Alternative 2: Includes a cost of applying foliar pesticides 
        range from $6 to $25 based on prices quoted in Soybean 
        Business, a magazine for Minnesota growers. See also Johnson, 
        K.D., et al. (2009) ``Probability of Cost-Effective Management 
        of Soybean Aphid (Hemiptera: Aphididae) in North America,'' 
        Journal of Economic Entomology 102(6): 2101-2108.

  <bullet> Alternative 3: Considers the case that foliar sprays do not 
        control for potential soil pests or that the optimal time to 
        apply pesticides are not available due to field or 
        environmental conditions. As such, the yield benefits afforded 
        by foliar sprays are assumed to be 1 bu/ac less than those 
        provided by seed treatments.

  <bullet> Alternative 4: Same as alternative 3, but in a region where 
        the yields are lower than the national average (e.g., 
        Mississippi soybean yield in 2009 was 38 bu/ac and the national 
        yield was 44 bu/ac) in a year with low prices (e.g., average 
        price received by farmers in 2009 for soybeans was $9.59 per 
        bu).

                                  [all]
</pre></body></html>
